           Report No. D-2009-030                    December 8, 2008 





            Marine Corps Implementation of the 

            Urgent Universal Needs Process for 

         Mine Resistant Ambush Protected Vehicles





                                          Warning
“The enclosed document(s) is (are) the property of the Department of Defense, Office of
Inspector General. Release or disclosure of the contents is prohibited by DOD Directive
5106.1. Contents may be disclosed only to persons whose official duties require access
hereto. Contents cannot be released outside the Defense Department without the approval of
the Department of Defense, Office of Inspector General.”
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DOTMLPF               Doctrine, Organization, Training, Materiel, Leadership and
                       Education, Personnel, and Facilities
G-BOSS                Ground-based Operational Surveillance System
HMMWV                 High Mobility Multi-Purpose Wheeled Vehicle
IED                   Improvised Explosive Device
JERRV                 Joint Explosive Ordnance Disposal Rapid Response Vehicle
JRAC                  Joint Rapid Acquisition Cell
JUON                  Joint Urgent Operational Need
MAK                   Marine Armor Kit
MCCDC                 Marine Corps Combat Development Command
MCSC                  Marine Corps Systems Command
MRAP                  Mine Resistant Ambush Protected (vehicle)
MROC                  Marine Corps Requirements Oversight Council
UUNS                  Urgent Universal Need Statement
                                        INSPECTOR GENERAL 

                                        DEPARTMENT OF DEFENSE 

                                          400 ARMY NAVY DRI VE 

                                     ARLINGTON, VIRGINIA 22202-4704 



                                                                                     December 8, 2008

MEMORANDUM FOR DIRECTOR, JOfNT STAFF
               NA VAL fNSP ECTOR GENERAL

SUBJECT: Marine Corps Implementation of the Urgent Universal Needs Process for Mine
         Resistant Ambush Protected Vehicles (Report No. D-2009-030)


We are providing this report for review and comment. We performed this audit in response to a
request by the Assistant Commandant of the Marine Corps. We considered comments from the
Joint Staff, the Depmiment of the Navy, and the Marine Corps when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The comments of
the Director, Joint Staff and the Commanding General, Marine Corps Combat Development
Command were responsive to the two report recommendations. However, based on comments
made by the Director, we revised Recommendation 2. Therefore, we request additional comments
on Recommendation 2. from the Commanding General, Marine Corps Combat Development
Command by February 9, 2009.

If possible, send your comments in electronic format (Adobe Acrobat file only) to
AudACM@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the / Signed / symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET) .

   .!!lli~£i!!g:   the cOUliesies extended to the   ~stions           should be di
                                                     _          or
                             member's are           inside the back cover.




                                                    Richard B. Jolliffe
                                                    Assistant Inspector General
                                                    Acquisition and Contract Management




                                            Special Warning

This report contains information that is designated "FOR OFFICIAL USE ONLY," in
accordance with the Freedom of Information Act under exemptions 3, 4, and 5, Section
1905, title 18, Unitcd States Code, and section 423, title 41, United States Code, provide
specific penalties for the unauthorized disc!oSUl'C of company confidential 01' proprictary
information, This report must be safeguarded in accordance with DoD Regulation 5400.7-R.



                                         FOR OFFICIAL USE ONLY 

                    Report No. D-2009-030 (Project No. D2008-D000AE-0174.000) 

                                        December 8, 2008 


               Results in Brief: Marine Corps Implementation of the Urgent
               Universal Needs Process for Mine Resistant Ambush Protected
               Vehicles

What We Did                                              that involved mines and IEDs. As a result, the
At the request of the Assistant Commandant of            Department entered into operations in Iraq
the Marine Corps, we reviewed the Marine                 without having taken available steps to acquire
Corps decision making process to determine               technology to mitigate the known mine and IED
whether the decision makers responded                    risk to soldiers and Marines. We are making
appropriately and timely to the February 2005            recommendations only to the Marine Corps
Urgent Universal Need Statement (UUNS)                   because the scope of our audit was limited to a
submitted by field commanders for Mine                   review of Marine Corps actions to address the
Resistant Ambush Protected (MRAP)-type                   IED threat. We plan to address other Services’
vehicles.                                                actions to counter the IED threat during future
                                                         audits.
What We Found                                            What We Recommend
Shortly after the June 2005 decision by the
Commandant of the Marine Corps to replace all            We recommend that the Director, Joint Staff
High Mobility Multi-Purpose Wheeled Vehicles             establish procedures in Chairman of the Joint
(HMMWV) in theater with the M1114                        Chiefs of Staff Instruction 3470.01, “Rapid
up-armored HMMWV, the Deputy                             Validation and Resourcing of Joint Urgent
Commandant of the Marine Corps for                       Operational Needs (JUONs) in the Year of
Installations and Logistics advised Marine               Execution,” July 15, 2005, and that the
Corps generals that the M1114 up-armored                 Commanding General, MCCDC establish
HMMWV was the best available, most                       procedures in Marine Corps Order 3900.17,
survivable asset to protect Marine Corps forces.         “The Marine Corps Urgent Needs Process
                                                         (UNP) and the Urgent Universal Need
In reaction, the Marine Corps Combat                     Statement (Urgent UNS),” October 17, 2008, to
Development Command (MCCDC) stopped                      enable Service requirements developers to
processing the UUNS for MRAP-type vehicle                forward urgent requirements that may have
capability in August 2005. Specifically,                 joint-Service applicability directly to the
MCCDC officials did not develop a course of              appropriate combatant commander for
action for the UUNS, attempt to obtain funding           endorsement and subsequent submission to the
for it, or present it to the Marine Corps                Joint Staff for validation as a Joint Urgent
Requirements Oversight Council for a                     Operational Need.
decision on acquiring an MRAP-type vehicle
capability. Further, the MCCDC did not, as it            Client Comments and Our Response
could and should have in July 2005, request that         The comments from the Director, Joint Staff and
the Deputy Commanding General, I Marine                  the Commanding General, Marine Corps
Expeditionary Force (Forward) take advantage             Combat Development Command were
of new Joint Staff processes available to address        responsive to our recommendations. Based on
an immediate and apparent joint warfighter need          the comments of the Director, Joint Staff, we
for an MRAP-type vehicle capability.                     revised both recommendations to provide for
                                                         combatant commander endorsement of urgent
DoD was aware of the threat posed by mines               Service requirements before submission of
and improvised explosive devices (IEDs) in               UUNS that may have joint-Service applicability
low-intensity conflicts and of the availability of       to the Joint Staff. Please see the
mine-resistant vehicles years before insurgent           recommendations table on the back of this page.
actions began in Iraq in 2003. Yet DoD did not
develop requirements for, fund, or acquire
MRAP-type vehicles for low-intensity conflicts


                                                     i
                 Report No. D-2009-030 (Project No. D2008-D000AE-0174.000)
                                     December 8, 2008

Recommendations Table
Client                            Recommendations            No Additional Comments
                                  Requiring Comment          Required
Director, Joint Staff                                        1.

Commanding General, Marine        2.
Corps Combat Development
Command


Please provide comments by February 9, 2009.




                                            ii
Table of Contents 


Results in Brief	                                                       i


Introduction	                                                           1


       Objective                                                        1

       Background                                                       1


Finding. Marine Corps Actions in Response to the February 17, 2005,

Urgent Universal Need Statement for Mine Resistant Ambush 

Protected Vehicles                                                      5


       Client Comments on the Finding, and Our Response                15 

       Recommendations, Client Comments, and Our Response              15 


Appendices

       A. Scope and Methodology 	                                      19 

                Review of Internal Controls                            20 

                Prior Coverage                                         21 

       B. Glossary          	                                          23

       C. February 17, 2005, Urgent Universal Need Statement for 

                Mine Resistant Ambush Protected Vehicles               29 

       D. Mines and Improvised Explosive Devices: 	Lessons Learned

                and Recommended Actions                                35 

       E. Congressional Legislation 	                                  41 

       F. Key Marine Corps Officials 	                                 44 

       G. Timeline for the Urgent Universal Need Statement for 

                Mine Resistant Ambush Protected Vehicles               48

       H. Mine Resistant Ambush Protected Vehicle: 	Urgent Needs

                Process and Management Objectives                      52 

       I. Process for Joint Urgent Operational Needs 	                 56 

       J. 	 Client Comments on the Finding, and 

                Our Response                                           59 

Client Comments

       Joint Staff                                                     65     

       Department of the Navy                                          68 

       Marine Corps                                                    69     





                           FOR OFFICIAL USE ONLY 

                                     3
4
Introduction
Objective
The objective of the audit was to determine whether Marine Corps decision makers
responded appropriately and timely to the February 2005 Urgent Universal Need
Statement (UUNS) submitted by field commanders for Mine Resistant Ambush Protected
(MRAP) vehicles. See Appendix A for a discussion of the scope and methodology and
prior coverage related to the audit objective, and for a review of the internal controls.

Background
This audit was initiated at the request of the Assistant Commandant of the Marine Corps
in response to allegations of mismanagement regarding the identification and fulfillment
of a requirement for MRAP-type vehicles made in the “Mine Resistant Ambush Protected
Vehicle (MRAP) Ground Combat Element (GCE) Advocate Science and Technology
(S&T) Advisor Case Study,” January 22, 2008. Specifically, the allegations stated that
the Marine Corps did not promptly respond to the needs of deployed units, and that
inaction by Marine Corps officials on acquiring MRAP-type vehicles cost Marines their
lives.

The Assistant Commandant’s request also identified allegations that possible criminal
negligence occurred in the acquisition of MRAPs. We did not find any evidence of
criminal negligence in the Marine Corps’ processing of the February 2005 MRAP
UUNS. In addition, the Assistant Commandant asked that we review the Marine Corps
management actions taken in response to an UUNS submitted for a laser dazzler. Our
subsequent review of the laser dazzler acquisition will be addressed in a separate report.

Mine Resistant Ambush Protected Vehicles
MRAP-type vehicles have a V-shaped armored hull and protect against the three primary
kill mechanisms of mines and improvised explosive devices (IEDs): fragmentation, blast
overpressure, and acceleration. These vehicles provide the best currently available
protection against IEDs. Experience in theater shows that a Marine is four to five times
less likely to be killed or injured in an MRAP-type vehicle than in an up-armored High
Mobility Multi-Purpose Wheeled Vehicle (HMMWV). MRAP-type vehicles come in
three categories.

   �	 Category I, designed for use in urban environments, transports up to six 

      personnel.

   �	 Category II, for convoy escort, troop transport, and ambulance evacuation, 

      transports up to 10 personnel.

   �	 Category III is for route clearance and explosive ordnance disposal.




                                             1

Urgent Universal Needs Process
The Marine Corps UUNS process enables deployed commanders to request equipment
critical to the mission based on their recent experience in combat. Through the UUNS
process, the Marine Corps is able to procure equipment faster than through the Defense
acquisition process. The Marine Corps UUNS process currently uses a secure,
Web-based system that allows stakeholders to track requests from their submission to the
Marine Corps Combat Development Command (MCCDC) through resolution. Typically,
the Marine Corps funds UUNS by reprogramming funds from approved programs or by
using congressional supplemental funding.

Requests for MRAP-type Vehicles
On February 17, 2005, the Deputy Commanding General, I Marine Expeditionary Force,
through the Commanding General, Marine Corps Forces, Pacific, submitted an UUNS for
1,169 MRAP-type vehicles to the MCCDC. The UUNS identified an immediate need for
an MRAP-type vehicle capability to increase survivability and mobility of Marines
operating in hazardous fire areas against known threats. See Appendix C for the
February 17, 2005, UUNS describing the capabilities required of the MRAP-type vehicle.

          On May 21, 2006, the Commanding General, Multi-National Force-West
submitted a Joint Staff Rapid Validation and Resourcing Request1 for 185 MRAP-type
vehicles to the Joint Requirements Oversight Council (JROC). In July 2006, the
Commanding General, Multi-National Force-West submitted a second Joint Staff Rapid
Validation and Resourcing Request for 1,000 MRAP-type vehicles to the JROC. This
request ultimately resulted in the identification of a requirement for 1,185 MRAP-type
vehicles for the Army, Navy, and Marine Corps and the initiation of a joint MRAP
acquisition program. On May 2, 2007, the Secretary of Defense declared that the MRAP
acquisition program was the number one acquisition priority for the Department of
Defense.

Mine Resistant Ambush Protected Vehicle Program
          In July 2008, the Joint Requirements Oversight Council approved a total DoD
requirement of 15,838 MRAP-type vehicles. Of these, 2,225 were allocated for the
Marine Corps. The Navy is the executive agent for the program, and the Commander,
Marine Corps Systems Command is the Joint Program Executive Officer. The Program
Manager, Joint MRAP Vehicle Program Office, is responsible for managing the MRAP
program and reports to the Joint Program Executive Officer. As an example of the
Department’s adaptation to evolving threats, the Joint MRAP Vehicle Program Office
recently initiated a new MRAP II program for the Marine Corps and other forces. Marine
Corps officials stated that vehicles procured through the MRAP II program should have
the enhanced survivability and performance capability required by field commanders. As
of October 2008, the MRAP Joint Program Office had issued contracts for


1
 A Joint Staff Rapid Validation and Resourcing Request is a joint urgent operational need identified by a
combatant commander to identify, and subsequently gain Joint Staff validation of, a solution to meet
specific high-priority combatant commander needs, usually within days or weeks.


                                   FOR OFFICIAL USE ONLY
                                             2
15,830 MRAP-type vehicles and as of November 2008, 12,073 MRAP-type vehicles had
been shipped to theater.

Earlier Actions To Address the IED Threat
Before the MRAP UUNS was submitted in February 2005, the Army began procuring
M1114 up-armored HMMWVs in 2004 to counter the IED threat. Marine Corps officials
stated that, because the M1114 up-armored HMMWV production line was active,
increasing production of the M1114 up-armored HMMWV was the fastest way to
provide improved protection against IEDs for their soldiers in Iraq. Beginning in 2004,
the Deputy Secretary of Defense took action to address all non-counter-IED immediate
warfighter needs by establishing the Joint Rapid Acquisition Cell (JRAC) and also
established the Joint IED Defeat Organization, which focuses on counter-IED immediate
warfighter initiatives. The Secretary of Defense also took action by issuing memoranda
regarding time-critical actions and guidance concerning Rapid Acquisition Authority for
equipment urgently needed to reduce combat fatalities.

Knowledge of the Mine and Improvised Explosive Device Threat
Before insurgent activities began in Iraq in 2003, DoD knew that:
   �	 the primary threat to tactical wheeled vehicles in low-intensity conflicts is from
       mines;
   �	 unarmored HMMWVs, retrofitted HMMWVs, and those with armor improvised
       in the field were vulnerable to mines because of the vehicles’ flat bottom, low
       weight, low ground clearance, and aluminum body;
   �	 V-hull and monocoque2 V-hull mine-resistant vehicle technology was available
       that could greatly reduce injuries caused by mines by as much as 70 percent while
       virtually eliminating fatalities; and
   �	 Third- and fourth-generation mine-resistant vehicle designs were available.

Accordingly, the Department had time to develop requirements for, fund, and acquire
MRAP-type vehicles to be prepared for potential low-intensity conflicts before
insurgency actions began in Iraq in 2003. See Appendix D for further details on the
identification of the need for MRAP-type vehicles in low-intensity conflicts before Iraq.

Congressional Action
Congress enacted the Duncan Hunter National Defense Authorization Act for FY 2009,
and it requires the Secretary of Defense to commission a study and report by an
independent body to assess both the effectiveness of the processes used by DoD for
generating urgent operational need requirements and the acquisition processes used to
fulfill such requirements. See Appendix E for the full text of the legislation.




2
    For a definition of this and other terms, see the Glossary, Appendix B.



                                                        3

THIS PAGE LEFT INTENTIONALLY BLANK 





                 4

Finding. Marine Corps Actions in Response
to the February 17, 2005, Urgent Universal
Need Statement for Mine Resistant Ambush
Protected Vehicles
The MCCDC did not fulfill the requirements of the UUNS process or the Joint Urgent
Operational Need (JUON) process in determining whether an acquisition program should
be initiated in response to the MRAP UUNS submitted on February 17, 2005. In the
UUNS, the Deputy Commanding General, I Marine Expeditionary Force (Forward)3
requested the acquisition of 1,169 MRAP-type vehicles to support Marines engaged in
Operation Iraqi Freedom. Specifically, the MCCDC did not:

    �	 develop a course of action document in response to the February MRAP UUNS
       and submit it to the Marine Corps Requirements Oversight Council (MROC) to
       determine whether to initiate an acquisition program; or
    �	 request that the Commander, I Marine Expeditionary Force (Forward) submit the
       urgent requirement through the JUON process, which was established while the
       MCCDC was reviewing the MRAP UUNS, to determine whether to initiate a
       joint acquisition program to meet the urgent warfighter need.

The MCCDC did not complete those actions because it considered the June 2005
decision by the Commandant, Marine Corps to acquire the M1114 up-armored HMMWV
as the immediately available solution to the IED threat. As a result, in August 2005, the
MCCDC stopped processing the February 17, 2005, MRAP UUNS, even though the
M1114 up-armored HMMWV did not adequately protect Marines from under-body IED
attacks, which were increasing in Iraq. As a consequence, the MROC was not afforded
the opportunity to evaluate the need to acquire MRAPs to mitigate the risk to the lives of
Marines in theater. See Appendix G for a timeline of fielded capabilities compared with
mine and IED attack trends. For a graphic presentation of MCCDC’s processing of the
February 17, 2005, UUNS, see Appendix H.

Instructions and Guidance for Processing Urgent Needs
The Secretary of Defense and the Deputy Secretary of Defense issued memoranda
between September 2004 and June 2005 that established the JRAC and authorized it to
expedite procurement of equipment to save lives. The Chairman of the Joint Chiefs of
Staff and the Marine Corps, in Marine Corps Orders and Marine Administrative
Messages, implemented instructions and guidance for processing urgent warfighter
needs.




3
 See Appendix F for a list of Marine Corps General Officers in key positions during the processing of the
February 17, 2005, UUNS.



                                                    5

Joint Chiefs of Staff Instruction
The Chairman of the Joint Chiefs of Staff Instruction 3470.01, “Rapid Validation and
Resourcing of Joint Urgent Operational Needs (JUONs) in the Year of Execution,”
July 15, 2005,4 established policy and procedures to facilitate assessment, validation,
sourcing, resourcing, and fielding of urgent, operationally driven, execution-year
combatant commander needs. The Instruction states that these needs must be considered
life threatening or mission critical; based on unforeseen military requirements; and met in
days, weeks, or months. The process is not intended to replace the Joint Capabilities
Integration and Development System process, but to accelerate the fielding of readily
available systems to satisfy joint urgent wartime needs. See Appendix I for a flowchart
of the JUON process.

Marine Corps Guidance
Marine Corps Order 3900.15A, “Marine Corps Expeditionary Force Development
System,” November 26, 2002, established the Expeditionary Force Development System.
This system incorporates the use of advocates representing each element of the Marine
Air-Ground Task Force in developing warfighting capabilities and requirements. The
Order also supports the combat requirement-generating role of the advocates and the
requirement-validating role of MROC, and enables the monitoring of emerging areas like
expeditionary maneuver warfare and science and technology development.

After the Naval Audit Service report, “Marine Corps Urgent Universal Need Statement
Process,” September 28, 2007, the Marine Corps revised MCO 3900.15A with the
issuance of MCO 3900.15B, “Marine Corps Expeditionary Force Development System,”
March 10, 2008. In the revision, the Marine Corps established policy for using the
Expeditionary Force Development System to conduct capabilities-based planning,
consistent with the Joint Capabilities Integration and Development System process, and
described the relationships between the Deputy Commandant for Combat Development
and Integration, other deputy commandants and functional advocates, commanders,
Marine Corps forces, and offices within the Department of the Navy.

On July 1, 2008, the Marine Corps issued Marine Corps Bulletin 3901, “The Marine
Corps Urgent Needs Process (UNP) and the Urgent Universal Need Statement (Urgent
UNS),” to supplement MCO 3900.15B. The bulletin defines the Marine Corps Urgent
Needs Process and refines guidance for the submission and processing of an UUNS. On
October 17, 2008, the Marine Corps issued Marine Corps Bulletin 3900.17, “The Marine
Corps Urgent Needs Process (UNP) and the Urgent Universal Need Statement (Urgent
UNS),” to define the Marine Corps Urgent Needs Process and to refine guidance for the
submission and processing of an UUNS.




4
 On July 9, 2007, the Chairman of the Joint Chiefs of Staff published a draft revision to CJCSI 3470.01,
“Rapid Validation and Resourcing of Joint Urgent Operational Needs (JUONs) in the Year of Execution,”
which is currently in staffing.



                                                    6

Earlier, the Marine Corps issued administrative messages that established procedures for
the operating forces to use to submit and staff an UUNS and defined the roles and
responsibilities at each level of the staffing process.5

Marine Corps Response to the Mine and Improvised
Explosive Device Threat
(FOUO) Before the submission of the MRAP UUNS in February 2005, insurgents used
mines and IEDs to conduct side and under-vehicle attacks against wheeled and tracked
vehicles. The majority of the attacks against wheeled and tracked vehicles were side
attacks. In response, the Marine Corps fielded additional capabilities6 as part of a
combined arms strategy with the M1114 up-armored HMMWVs to counter the IED
threat. The insurgents, in response to the upgrading of the HMMWVs increased the use
of under-vehicle mines to attack U.S. vehicles in the summer of 2006. To counter this
evolving threat, the Secretary of Defense made the procurement of MRAP-type vehicles
the Department’s top acquisition priority in May 2007.

Counter Improvised Explosive Device Actions Implemented by
the Marine Corps
To counter the IED threat, the Marine Corps began upgrading HMMWVs in theater with
add-on armor in 2004. Later, the Marine Corps developed and fielded the Marine Armor
Kit (MAK). As part of the emergency supplemental appropriation authorized by
Congress, the Marine Corps received an additional $216.8 million in funding in May
2005 to procure M1114 up-armored HMMWVs. With this and other funding, the
Commandant of the Marine Corps ordered that all HMMWVs in theater be replaced with
M1114 up-armored HMMWVs. As a part of a combined arms strategy to defeat IEDs,
the Marine Corps also fielded frequency jammers, the Mine Roller System, and the
Ground-based Operational Surveillance System (G-BOSS).

Add-On-Armoring Efforts
In January 2004, the MROC approved an initiative to immediately provide armor to all
vehicles engaged in Operation Iraqi Freedom. The Marine Corps procured and installed
commercial off-the-shelf Generation I armor by April 2004. Also in April 2004, the
Marine Corps began fielding Generation II armor, which included upgraded armor
developed by the Marine Corps Logistics Command.

In September 2004, I Marine Expeditionary Force issued a policy letter defining its
armoring requirements to include the use of the Marine Armor Kit, or Generation III
armor. The MAK provides complete 360-degree protection, as well as overhead and
underbody protection to the two-door, four-door, and armament variants of the

5
  Marine Administrative Message (MARADMIN) 550/2, “Urgent USMC Requirements Generation Process
for Operation Enduring Freedom,” October 16, 2002; MARADMIN 533/03, “Operation Iraqi Freedom II
UUNS Process,” November 21, 2003; MARADMIN 424/04, “Operation Iraqi Freedom III UUNS
Process,” September 28, 2004; and MARADMIN 045/06, “UUNS Process,” January 26, 2006.
6
  The fielding of the Marine Armor Kit and other counter-IED capabilities is discussed in detail later in the
finding.


                                   FOR OFFICIAL USE ONLY
                                             7
HMMWV. Options for the MAK include air-conditioning and steel overlay panels for
the doors and rocker panels. The first MAKs were delivered to Marines in theater in
January 2005, and the number of systems currently fielded is 5,550.

Decision by the Commandant of the Marine Corps To Field M1114
Up-Armored High Mobility Multi-Purpose Wheeled Vehicles
After receiving the May 2005 emergency supplemental funds, the Commandant of the
Marine Corps directed the Deputy Commandant, Installations and Logistics in June 2005
to coordinate an overall effort to procure enough M1114 up-armored HMMWVs to
replace all HMMWVs in theater. Relaying the Commandant’s decision in a June 2005
e-mail, the Deputy Commandant, Installations and Logistics stated that the M1114
up-armored HMMWV was the best available, most survivable asset to protect Marine
forces and meet immediate mission requirements. He sent the e-mail to the Commandant
of the Marine Corps, the Assistant Commandant of the Marine Corps, the Deputy
Commandant of the Marine Corps for Programs and Resources, the Deputy Commandant
of the Marine Corps for Combat Development and Integration, and the Commanding
General, Marine Corps Forces Pacific, among others. In the e-mail, the Deputy
Commandant, Installations and Logistics stated that in-theater requirements totaled
1,809 M1114 up-armored HMMWVs with an approximate cost of $415 million. The
Commanding General, Marine Corps Forces Pacific replied to the e-mail’s recipients
that, with the introduction of the Cougar and Buffalo MRAP-type vehicles, the Marine
Corps needed more than M1114 up-armored HMMWVs in theater.

In an interview with the audit team, the former Commanding General, Marine Corps
Forces Pacific7 stated that in 2005, MRAP-type vehicles needed to be fielded in theater in
addition to the M1114 up-armored HMMWV in some numbers for operations in
high-risk areas. He stated that he did not know what action was taken on his
recommendation for a mixed-vehicle fleet.

In a separate interview with the audit team, the former Commandant of the Marine
Corps8 stated that he did direct the 100-percent replacement of HMMWVs in theater with
M1114 up-armored HMMWVs. However, he stated that his direction was not intended
to preclude the Marine Corps from procuring MRAP-type vehicles or to stop MCCDC
from completing the requirements of the UUNS process for considering the acquisition of
MRAP-type vehicles in response to the February 17, 2005, UUNS.

Other Marine Corps Actions To Defeat Improvised Explosive Devices
The Marine Corps, as part of a combined arms strategy, fielded frequency jammers, the
Mine Roller System, and the G-BOSS to mitigate the threat posed by mines and IEDs.
Specifically, the Marine Corps acquired and fielded frequency jammer systems that
continuously radiate when switched on to counter radio-controlled IEDs in Iraq and


7
  This person left the position of the Commanding General, Marine Corps Forces Pacific in August 2005, 

and is now retired from the Marine Corps. 

8
  This person left the position of the Commandant of the Marine Corps in November 2006, when he retired 

from the Marine Corps. 




                                                   8

Afghanistan. Since May 2006, the Marine Corps has installed 6,635 frequency jammers
in support of Operation Iraqi Freedom.

The Mine Roller System is lightweight and can be attached to wheeled vehicles to
counter pressure-detonated IEDs. The weight of the system causes buried IEDs to
detonate before the crew compartment of the wheeled vehicle passes over the explosive
device. The Marine Corps first used the Mine Roller System in Operation Iraqi Freedom
in October 20069 and has an approved acquisition objective of 603 systems.

The Marine Corps also procured the G-BOSS to provide a continuous ground-based
surveillance capability. The Marine Corps uses the G-BOSS to track insurgent
movements and activities and to document insurgent cross-border activities. The system
was not fielded until February 2007 because the G-BOSS capability had to be developed.
As of July 2008, the Marine Corps had fielded 120 G-BOSSs in theater.

Earlier Marine Corps Procurement of Mine Resistant Ambush
Protected-type Vehicles
In December 2003 and March 2005, the MCCDC validated MRAP-type vehicle
requirements, separate from the February 2005 UUNS, and Marine Corps Systems
Command (MCSC) subsequently contracted for MRAP-type vehicles. Further, in March
2005, midlevel Marine Corps officers briefed the Executive Safety Board on capabilities
that MRAP-type vehicles could provide to protect forces in theater.

Mine Resistant Ambush Protected-Type Vehicles Previously
Procured by the Marine Corps
In April 2004, the MCCDC issued a statement of need for 27 Hardened Engineer
Vehicles in response to a December 2003 UUNS from the I Marine Expeditionary Force.
Hardened Engineer Vehicles are medium-sized blast-protected (MRAP-type) vehicles
produced in four- and six-wheel layouts. They can be customized for multiple tasks,
including troop transport, mine and explosive ordnance disposal, command and control,
reconnaissance, and as a lead convoy vehicle. Hardened Engineer Vehicles were
deployed in October 2004. In April 2005, the Joint IED Task Force approved the release
of $92.14 million from the Iraq Freedom Fund for the procurement of 122 Joint
Explosive Ordnance Disposal Rapid Response Vehicles (JERRVs), the joint-Service
version of the Hardened Engineer Vehicle. Of the 122 JERRVs, 38 were for the Marine
Corps. The first JERRV was fielded in August 2005.

Executive Safety Board Briefing
On March 29, 2005, midlevel Marine Corps officers briefed the Marine Corps Executive
Safety Board on mine-resistant vehicles and proposed introducing MRAP-type vehicles
in theater on a large scale. The Assistant Commandant of the Marine Corps chaired the
Executive Safety Board briefing, attended by several Marine Corps General Officers,
including the Deputy Commandant for Combat Development and Integration. The

9
 The U.S. military previously used improvised mine roller systems in World War II, Vietnam, and
Somalia.



                                                   9

briefers proposed using the MAK and Medium Tactical Vehicle Replacement Armor
System to bridge the gap between the HMMWV and a commercial off-the-shelf
MRAP-type vehicle, with the MRAP-type vehicle becoming the standard.

The officers’ briefing noted that an MRAP UUNS had been signed in February 2005 and
listed the different MRAP-type vehicles needed to fulfill the UUNS request. The
Executive Safety Board minutes stated that the Assistant Commandant of the Marine
Corps favored procuring mine-resistant vehicles.

The minutes stated that the Assistant Commandant of the Marine Corps directed the
Deputy Commandant for Combat Development and Integration to review the feasibility
of developing or buying a new, mine-resistant tactical vehicle to replace the HMMWV
and to present the results at the next Executive Safety Board meeting. However, the
MCCDC could not provide us with any evidence that the requested review was
performed.

Marine Corps Response to the February 17, 2005, UUNS
for Mine Resistant Ambush Protected-Type Vehicles
After the Deputy Commanding General, I Marine Expeditionary Force (Forward)
submitted the February 17, 2005, UUNS for 1,169 MRAP type-vehicles, the MCCDC
and the MCSC began processing the requirement and working to identify a materiel
solution.

Justification for Acquiring Mine Resistant Ambush Protected
Vehicles
On February 17, 2005, the Deputy Commanding General, I Marine Expeditionary Force
(Forward) signed the UUNS requesting 1,169 MRAP vehicles. The UUNS stated that
Marine forces had an immediate need for an MRAP-type vehicle capability to increase
survivability and mobility of Marines operating in hazardous fire areas against known
threats. He stated in the UUNS that he identified the need through operational combat
experience and critical analysis of casualty data from the Joint Theater Trauma Registry
Report. The Deputy Commanding General also stated that MRAP-type vehicles
significantly increased personnel survivability over existing motor vehicle equipment and
would mitigate casualties resulting from IED and motor vehicle accidents. To mitigate
Marine Corps casualties, he specified in the UUNS a need to acquire 1,169 MRAP-type
vehicles as follows:

   �	   759 multimission combat vehicles,
   �	   229 troop transport vehicles,
   �	   58 flat bed, 7-ton-cargo truck-equivalent vehicles,
   �	   58 ambulance-variant vehicles, and
   �	   65 explosive ordnance disposal and engineer variants with a 50-foot investigating
        arm.




                                           10

In the UUNS, the Deputy Commanding General recommended procuring the troop
transport and multimission MRAP-type vehicles before funding other variants. In an
interview with the audit team, the former Deputy Commanding General10 stated that, at
the time he signed the UUNS, the M1114 up-armored HMMWV met the current threat.
He stated that he submitted the UUNS in anticipation of the enemy countering the M1114
up-armored HMMWV, and he expected the Marine Corps to field a vehicle in response
to his UUNS within 2 to 5 years. The former Deputy Commanding General stated that,
in retrospect, the February 17, 2005, UUNS probably should have been a joint-Service
requirement.

More than 2 years later, on July 16, 2007, the former Deputy Commanding General
issued a memorandum to the Director, Marine Corps Public Affairs, stating that the 2005
decision to field M1114 up-armored HMMWVs was the correct Marine Corps decision in
response to the threat in 2005. The former Deputy Commanding General told the audit
team that he issued the memorandum to clarify that his intent in signing the UUNS was
for the Marine Corps to acquire and field the MRAP within 2 to 5 years, as stated earlier.
However, as shown in Appendix C, the UUNS clearly indicated that the requirement for
MRAP-type vehicles was priority 1 and urgently needed–not a capability desired in 2 to
5 years.

Marine Corps Combat Development Command Actions
MARADMIN 533/0311 required the MCCDC to convene a Doctrine, Organization,
Training, Materiel, Leadership and Education, Personnel, and Facilities (DOTMLPF)
Working Group to review the UUNS and for MCCDC to present a course of action to the
MROC. On receipt of the MRAP UUNS on February 22, 2005, MCCDC entered it in
MCCDC’s Combat Development Tracking System. The system collects, organizes,
presents, and stores information and documentation about initiatives being pursued by the
Marine Corps to enhance combat capabilities and readiness. The system manages the
flow of a requirements document generated for an UUNS that has been validated through
the UUNS process.

The DOTMLPF Working Group reviewed the MRAP UUNS. DOTMLPF
representatives stated that some of the key issues deliberated during the Working Group
meetings included cost, how the MRAP-type vehicles fit with the Marine Corps doctrine
of an expeditionary fighting force, whether the MRAP-type vehicle would be theater
specific, whether a 100-percent solution existed, how the MRAP-type vehicle would be
supported logistically, the reliability of MRAP-type vehicles such as the Cougar12 already
in theater, and whether to change the MRAP UUNS to a universal need statement and
present it to the Marine Corps Warfighting Laboratory for further research. At the end of

10
   The Deputy Commanding General, I Marine Expeditionary Force in February 2005, is now the 

Commanding General, II Marine Expeditionary Force. 

11
   Marine Corps Order 3900.17, “The Marine Corps Urgent Needs Process (UNP) and the Urgent Universal 

Need Statement (Urgent UNS),” October 17, 2008, cancelled MARADMIN 533/03, MARADMIN 424/04, 

and MARADMIN 045/06. 

12
   Several Marine Corps representatives that we interviewed stated that MRAP-type vehicles in theater 

were experiencing reliability issues in 2005 that caused the MRAP-type vehicles to be unusable at times. 




                                                   11

March 2005, the DOTMLPF Working Group submitted an information paper with
options for satisfying the UUNS to the Deputy Commandant, Combat Development and
Integration.

Representatives from the DOTMLPF Working Group provided us three versions of the
information paper but could not recall which version they forwarded to the Deputy
Commandant, Combat Development and Integration. The version of the information
paper with the latest date recommended to immediately begin efforts to procure limited
quantities of MRAP-type vehicles for a tailored, specialty vehicle fleet to mitigate the
effects of mines and IEDs. The information paper also stated that the MRAP fleet should
be considered theater-specific equipment and should be delivered to the Marine
Expeditionary Force and added to its table of equipment.

In an interview with the audit team, the former Deputy Commandant, Combat
Development and Integration13 acknowledged that he received an information paper and
stated that he directed that work continue on a solution to the UUNS. He also stated that
he did not know why the DOTMLPF Working Group did not develop a course of action
for MROC review.

The Chairman, DOTMLPF Working Group briefs the MROC periodically on the status
of UUNS being processed. The Chairman briefed the MROC on the status of the MRAP
UUNS on three occasions.14 The Chairman’s last briefing to the MROC on the MRAP
UUNS occurred on August 8, 2005. At that time, the DOTMLPF Working Group did not
identify any processing issues with the UUNS and stated that a solution was being
developed by the MCSC.

Procurement Activities at Marine Corps System Command
In anticipation of receiving an MROC-approved requirement for MRAP-type vehicles,
the MCSC issued a request for information and developed a proposed acquisition strategy
to procure a materiel solution to the February UUNS for MRAP-type vehicles.

Request for Information
In November 2004, the MCSC received a draft copy of the MRAP UUNS, submitted in
February 2005. Based on the requirements in the draft UUNS, MCSC released a request
for information in December 2004 on commercially available, off-road and
highway-suitable vehicle platforms capable of providing Marines with ballistic and mine
protection. The MCSC provided documentation showing that the request for information
identified nine potential vendors of MRAP-type vehicles.




13
   The person who held the position of Deputy Commandant, Combat Development and Integration during
the processing of the MRAP UUNS left the position in August 2006 and is now the Commander, U.S. Joint
Forces Command and the Supreme Allied Commander for Transformation.
14
   The Chairman DOTMLPF Working Group provided status briefs on the MRAP UUNS to the MROC on
March 25, 2005; June 10, 2005; and August 8, 2005.



                                                 12

Acquisition Strategy
           In anticipation of receiving a requirement for a large number of MRAP-type
vehicles, the Program Manager for Motor Transport at MCSC briefed other MCSC
officials on an acquisition strategy to acquire MRAP-type vehicles that included
two timelines for acquiring vehicles.15 The program manager also addressed outstanding
issues: requirements documentation, funding, purchasing from a foreign manufacturer,
and personnel.

Discontinuation of Marine Corps Actions in Response to the
February 17, 2005, Urgent Universal Need Statement for Mine
Resistant Ambush Protected-Type Vehicles
As stated earlier, the Commandant of the Marine Corps directed the Deputy
Commandant, Installations and Logistics in June 2005 to coordinate an overall effort to
procure enough M1114 up-armored HMMWVS to replace all HMMWVs in theater.
After this direction, the DOTMLPF Working Group briefed the MROC twice, the last
time on August 8, 2005, on the status of actions being taken to address the February 17,
2005 UUNS for MRAP-type vehicles. The MCCDC was unable to provide
documentation showing that after August 8, 2005, DOTMLPF Working Group fulfilled
remaining actions for processing the UUNS as required in Marine Corps
Order 3900.15A. Specifically, the DOTMLPF Working Group did not develop the
course of action necessary to submit the UUNS to the MROC for a decision on whether
to acquire MRAP-type vehicles.

Further, the DOTMLPF Working Group did not have documentation to show that a
decision had been reached on options concerning the UUNS—that is, whether to
recommend that the MROC support the immediate acquisition of MRAP-type vehicles or
that the requirement for MRAP-type vehicles be changed to a universal need statement16
that would not require the immediate acquisition of MRAP-type vehicles. The Combat
Development Tracking System, which collects information on the processing of UUNS,
did not include any information on the processing of the MRAP UUNS after March 22,
2005, until an information technology specialist closed the UUNS on November 7, 2006.

Apparently, the Commandant of the Marine Corps’ decision to acquire up-armored
HMMWVs at the same time as the UUNS for MRAP-type vehicles was being processed
deterred MCCDC from completing the UUNS process as required, even though the
then-Commandant stated that he did not intend for this to happen.



15
             The first timeline assumed that funding was assured; the second assumed that funding was not
assured.
16
   Representatives from MCCDC stated that they believed that Marine Corps Forces Pacific downgraded
the MRAP UUNS to a universal need statement. We contacted representatives from Marine Corps Forces
Pacific, including the universal need statement coordinator assigned to the MRAP UUNS, who did not have
any documentation regarding changing the MRAP UUNS to a universal need statement. In addition, the
representatives stated that they did not believe Marine Corps Forces Pacific had the authority to downgrade
an UUNS that they had sent to the MCCDC.


                                   FOR OFFICIAL USE ONLY
                                            13
As a consequence, the MROC was not afforded an opportunity to evaluate the need to
acquire MRAP-type vehicles. In addition, because the MCCDC did not develop a
statement of need or a concept of employment, submit to the MROC a recommended
course of action on acquiring MRAP-type vehicles, or obtain assurance of program
funding, the MCSC also discontinued its efforts to implement an acquisition strategy for
MRAP-type vehicles.

Joint Rapid Acquisition Cell
On September 3, 2004, the Deputy Secretary of Defense established the JRAC to
facilitate meeting the urgent materiel and logistics requirements that the combatant
commanders certify as operationally critical. An immediate warfighter need is a JUON
that requires a materiel or logistics solution in 120 days or less. If left unfulfilled, it
could result in combat-related loss of life or mission failure.

In addition, Chairman of the Joint Chiefs of Staff Instruction 3470.01 states that, once a
JUON is validated by the Joint Staff, J-8, resourcing of a solution should occur, usually
within days or weeks, to meet a specific high-priority combatant commander need. After
validation by Joint Staff, J-8, the JUON is forwarded to the JRAC for a decision on
whether to assign the JUON to a Service or to the Joint IED Defeat Organization.

Because of the potential for joint-Service applicability, the MCCDC could and should
have requested the Deputy Commanding General, I Marine Expeditionary Force
(Forward) to submit the requirement identified in the MRAP UUNS through the JUON
process. However, Chairman of the Joint Chiefs of Staff Instruction 3470.01 did not
establish procedures to enable Service requirements developers to forward urgent
requirements that potentially have joint-Service applicability to the Joint Staff.

Changes to Urgent Universal Needs Process Since
March 2005
After the Naval Audit Service Report No. N2007-0060, “Marine Corps Urgent Universal
Need Statement Process,” September 28, 2007, the Marine Corps issued Marine Corps
Order 3900.15B and Marine Corps Bulletin 3901. Representatives of the Naval Audit
Service concluded that Marine Corps Order 3900.15B, along with Marine Corps
Bulletin 3901, adequately defined the roles, responsibilities, and desired outcome of the
UUNS process within the Marine Corps. Specifically, Marine Corps Bulletin 3901,
issued during the audit, includes a procedure to send every UUNS received by the
MCCDC to the MROC for a decision. We believe that this practice will give the UUNS
process greater visibility and transparency. Also during the audit, the Marine Corps
issued Marine Corps Order 3900.17, “The Marine Corps Urgent Needs Process (UNP)
and the Urgent Universal Need Statement (Urgent UNS), October 17, 2008, which
defines and refines the UUNS process.

Conclusion
Shortly after the Commandant of the Marine Corps decided to replace all HMMWVs in
theater with the M1114 up-armored HMMWV, the Deputy Commandant of the Marine



                                             14

Corps for Installations and Logistics advised Marine Corps generals that the M1114
up-armored HMMWV was the best available, most survivable asset to protect Marine
Corps forces, and that it met immediate mission requirements. In reaction, the MCCDC
stopped processing the UUNS. That is, it did not develop a course of action on the
February 17, 2005, MRAP UUNS; attempt to obtain funding for it; or present the UUNS
to the MROC for approval of the immediate acquisition of MRAP-type vehicles to
mitigate risk to the lives of Marines in theater. Further, the MCCDC did not take
advantage of Joint Staff processes designed to address an immediate and apparent Joint
warfighter need for the MRAP-type vehicle.

The revisions to the UUNS process included in Marine Corps Order 3900.15B and
Marine Corps Bulletin 3901 did clarify the UUNS process and updated the policy to
require that the MCCDC submit all UUNS to the MROC. However, the policy should be
revised to incorporate a requirement that any UUNS submitted that has the potential to be
a joint-Service requirement be immediately elevated to the appropriate Joint Staff
organization.

As discussed in the Background section of this report and in Appendix D, DoD was
aware of the threat posed by mines and IEDs in low-intensity conflicts and of the
availability of mine-resistant vehicles before insurgent activities began in Iraq in 2003.
However, the Department did not take action to develop requirements for, fund, or
acquire MRAP-type vehicles for low-intensity conflicts involving the use of mines and
IEDs. As a result, the Department entered into operations in Iraq less prepared than it
could have been to mitigate the threat posed by mines and IEDs to the lives of soldiers
and Marines.

Client Comments on the Finding, and Our Response
Summaries of client comments on the finding and audit responses are in Appendix J.

Recommendations, Client Comments, and Our
Response
Revised Recommendations
In response to the draft report, the Director, Joint Staff requested that both
Recommendations 1. and 2. be changed to direct the Service requirements developers to
forward urgent requirements that may have joint-Service applicability to the appropriate
combatant commander, instead of directly to the Joint Chiefs of Staff. We agree with the
Director, Joint Staff’s comments and revised Recommendations 1. and 2. to direct
Service requirements developers to forward urgent requirements that may have
joint-Service applicability to the appropriate combatant commander for endorsement and
then to the Joint Staff for validation as Joint Urgent Operational Needs.

1. We recommend that the Director, Joint Staff revise Chairman of the Joint Chiefs
of Staff Instruction 3470.01, “Rapid Validation and Resourcing of Joint Urgent
Operational Needs (JUONs) in the Year of Execution,” July 15, 2005, to include




                                             15

procedures that Service requirements developers can follow to forward urgent
requirements that may have joint-Service applicability directly to the appropriate
combatant commander for endorsement and subsequent submission to the Joint
Staff for validation as Joint Urgent Operational Needs.

Director, Joint Staff Comments
The Director, Joint Staff, recommended revising both recommendations to ensure that the
combatant commander has the opportunity to review and endorse Service urgent
requirements that may have joint-Service applicability within the assigned area of
responsibility. He stated that the change will also ensure consistency with the Deputy
Secretary of Defense memorandum of November 2004 regarding immediate warfighter
needs.

Audit Response
The comments of the Director, Joint Staff were responsive. We agree with the Director’s
suggested revisions and have revised both recommendations accordingly.

Department of the Navy Comments
Although not required to comment, the Assistant Secretary of the Navy (Research,
Development and Acquisition) concurred with the recommendation.

2. We recommend that the Commanding General, Marine Corps Combat
Development Command revise Marine Corps Order 3900.17, “The Marine Corps
Urgent Needs Process (UNP) and the Urgent Universal Need Statement (Urgent
UNS),” October 17, 2008, to instruct the Capabilities Development and Integration
Board17 to immediately submit urgent universal need statements that have
joint-Service applicability or have the potential to affect or replace any joint
program to the appropriate combatant commander for endorsement and
subsequent submission to the Joint Staff for validation as Joint Urgent Operational
Needs.

Department of the Navy and Marine Corps Combat Development
Command Comments
The Assistant Secretary of the Navy (Research, Development and Acquisition) and the
Commanding General, MCCDC concurred. The Commanding General, MCCDC stated
that, within 45 days of the adoption of Recommendation 1. by the Chairman of the Joint
Chiefs of Staff, the Marine Corps will issue appropriate implementing instructions. The
Commanding General also stated that the ability of the Services to serve as an additional
entry point into the JUON process would simplify actions required of operational
commanders and avoid duplication of effort by Service capability development staffs.
He also noted that Marine Corps Bulletin 3901 has been superseded by Marine Corps
Order 3900.17, “The Marine Corps Urgent Needs Process (UNP) and the Urgent
Universal Need Statement (Urgent UNS),” October 17, 2008.
17
 The Capabilities Development and Integration Board replaced the Doctrine, Organization, Training,
Materiel, Leadership and Education, Personnel, and Facilities Working Group.



                                                  16

Audit Response
The Commanding General’s comments were responsive. However, as discussed above in
response to the suggestion by the Director, Joint Staff, we revised the recommendation to
ensure that the combatant commander has the opportunity to review and endorse Service
urgent requirements that may have joint-Service applicability within the assigned area of
responsibility before submitting them to the Joint Staff for validation as Joint Urgent
Operational Needs. Accordingly, we request that the Commanding General, MCCDC
provide comments on the revised Recommendation 2. in response to the final report.




                                           17

THIS PAGE LEFT INTENTIONALLY BLANK 





                18

Appendix A. Scope and Methodology
We conducted this performance audit from March through September 2008 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our finding and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives.

At the request of the Assistant Commandant of the Marine Corps, in response to
allegations of mismanagement regarding the identification and fulfillment of an urgent
requirement for MRAP-type vehicles, we reviewed the Marine Corps process to
determine whether the decision makers responded appropriately and timely to the
February 17, 2005, UUNS submitted by field commanders for MRAP-type vehicles.

We reviewed documentation and information dated from November 1991 through August
2008. Documents reviewed included the following:

   �	 After Action Report, Operations Desert Shield and Desert Storm, November 12,
      1991;
   �	 After Action Report, Operation Restore Hope, June 13, 1994;
   �	 Marine Corps Order 3900.15A, “Marine Corps Expeditionary Force Development
      System,” November 26, 2002;
   �	 Marine Administrative Message 533/03, “OIF [Operation Iraqi Freedom] II
      Urgent Universal Need Statement (UNS) Process,” November 21, 2003;
   �	 Deputy Secretary of Defense Memorandum, “Meeting the Immediate Warfighter
      Needs (IWNs),” September 3, 2004;
   �	 Marine Corps Systems Command request for information on MRAP-type 

      vehicles, December 2004; 

   �	 Secretary of Defense Memorandum, “Fiscal Year 2005 Rapid Acquisition 

      Authority (RAA),” January 25, 2005;

   �	 Urgent Universal Need Statement for MRAP vehicles, February 17, 2005;
   �	 Deputy Secretary of Defense Memorandum, “Joint Improvised Explosive Device
      (IED) Defeat,” June 27, 2005;
   �	 Chairman of the Joint Chiefs of Staff Instruction, CJCSI 3470.01, “Rapid
      Validation and Resourcing of Joint Urgent Operational Needs (JUONs) in the
      Year of Execution,” July 15, 2005;
   �	 Marine Corps Order 3900.15B, “Marine Corps Expeditionary Force Development
      System (EFDS),” March 10, 2008; and
   �	 Marine Corps Bulletin 3901, “The Marine Corps Urgent Needs Process (UNP)
      and the Urgent Universal Need Statement (Urgent UNS),” July 1, 2008.




                                           19

In addition, we conducted 68 interviews with Department of Defense personnel. The
interviews included current and former Marine Corps officers and civilians who occupied
the following positions in 2005 or 2006:

Commandant of the Marine Corps
Assistant Commandant of the Marine Corps
Deputy Commandant, Programs and Resources, U.S. Marine Corps
Deputy Commandant, Plans, Policies and Operations, U.S. Marine Corps
Deputy Commandant, Installations and Logistics, U.S. Marine Corps
Deputy Commandant, Combat Development and Integration, U.S. Marine Corps, and
       Commanding General, Marine Corps Combat Development Command
Commanding General, Marine Corps Forces Pacific and Marine Corps Central Command
Commanding General, II Marine Expeditionary Force
Commanding General, I Marine Expeditionary Force (Forward)
Commanding General, II Marine Expeditionary Force (Forward)
Inspector General of the Marine Corps
Deputy Commanding General, I Marine Expeditionary Force (Forward)
Commanding General, Marine Corps Systems Command
Commanding General, Marine Corps Warfighting Laboratory
Director, Operations Division, Plans, Policies and Operations, U.S. Marine Corps
Director, Expeditionary Force Development Center, Marine Corps Combat Development
       Command
Director, Capabilities Development Directorate, Marine Corps Combat Development
       Command
Director, External Coordination for the Deputy Commandant, Programs and Resources,
       U.S. Marine Corps
Executive Director, Marine Corps Systems Command
Deputy Director, Capabilities Development Directorate, Marine Corps Combat
       Development Command

We also interviewed staff from the Marine Corps Requirements Oversight Council, Joint
Rapid Acquisition Cell, Joint Improvised Explosive Device Defeat Organization, Army
Program Executive Office Ground Combat Systems, the Army Project Manager for
MRAP, the Army Program Executive Office Combat Support and Combat Service
Support, and the Project Manager for Tactical Vehicles.

Review of Internal Controls
We determined that a material internal control weakness in the UUNS process existed as
defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program
Procedures,” January 4, 2006. The Commanding General, Marine Corps Combat
Development Command’s process did not ensure that the February 17, 2005, MRAP
UUNS was either presented to the Marine Corps Requirements Oversight Council or sent
to the Joint Staff for a decision concerning the need to acquire MRAP-type vehicles.
Implementing Recommendation 1. will provide a means for Services to forward urgent
requirements with potential joint-Service applicability to the combatant commanders and



                                          20

Joint Chiefs of Staff for their consideration. We reviewed changes made to the Marine
Corps UUNS process implemented as a result of a Naval Audit Service report, “Marine
Corps Urgent Universal Need Statement Process,” September 28, 2007, and determined
that implementing Recommendation 2. will further improve the Marine Corps process for
evaluating and fulfilling future UUNS requirements. We will provide a copy of this
report to the senior official responsible for internal controls in the Marine Corps. We are
not making recommendations to the Army because the scope of our audit was limited to
actions taken by the Marine Corps to address the IED threat. We plan to address Army
actions to counter the IED threat during future audits.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), the Naval Audit Service, and the Inspector General
of the Marine Corps have issued eight reports discussing armor protection or the MRAP
vehicle. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-08-884R, “Rapid Acquisition of Mine Resistant Ambush
Protected Vehicles,” July 15, 2008

GAO Report No. GAO-06-274, “Defense Logistics: Lack of a Synchronized Approach
between the Marine Corps and Army Affected the Timely Production and Installation of
Marine Corps Truck Armor,” June 22, 2006

GAO Report No. GAO-06-160, “Defense Logistics: Several Factors Limited the
Production and Installation of Army Truck Armor during Current Wartime Operations,”
March 22, 2006

GAO Report No. GAO-05-275, “Defense Logistics: Actions Needed to Improve the
Availability of Critical Items during Current and Future Operations,” April 8, 2005

DoD IG
DoD IG Report No. D-2007-107, “Procurement Policy for Armored Vehicles,” June 27,
2007

Navy
Naval Audit Service Report No. N2007-0060, “Marine Corps Urgent Universal Need
Statement Process,” September 28, 2007




                                            21

Marine Corps
Inspector General of the Marine Corps Control Number 0001713, Readiness Assessment,
“US Marine Corps Ground Equipment in Iraq,” May 18, 2006

Inspector General of the Marine Corps Control Number 0001714, Readiness Assessment,
“US Marine Corps Ground Equipment in Iraq,” May 2005




                                        22

Appendix B. Glossary
Acceleration. Generically, acceleration is the rate of change of velocity with respect to
time. In military terms, acceleration is a high-intensity explosion (penetrating or
nonpenetrating) that may transmit accelerative forces through the armored vehicle
structure, causing injury to the crew. Types of injuries include:
    �	 direct impingement of a vehicle part onto a body part;
    �	 force loading the body through the vehicle’s seat;
    �	 displacement of the soldier into a vehicle part; or
    � trauma from displaced objects.

Acquisition Strategy. An acquisition strategy is a business and technical management
approach designed to achieve program objectives within the resource constraints
imposed. It is the framework for planning, directing, contracting for, and managing a
program. It provides a master schedule for research, development, test, production,
fielding, modification, postproduction management, and other activities essential for
program success. The acquisition strategy is the basis for formulating functional plans
and strategies such as the test and evaluation master plan, the acquisition plan,
competition, and systems engineering.

Armored Vehicle Generations. There are four generations of armor-protected vehicles:
  �	 1st Generation – a combination of 3/16-inch-steel L-shaped doors; ballistic 

     blankets; and appliqué panels;

  �	 2nd Generation – Marine Corps depot built 3/8-inch rolled homogeneous armor or
     “zonal” armor;
  �	 3rd Generation – integrated kit armor such as the Marine Armor Kit (see definition
     for Marine Armor Kit); and
  �	 4th Generation – designed and built with armor from the ground up.

        Armor Levels. There are three levels of armor for vehicles:
   �	 Level I –permanent armor fitted on by the manufacturer;
   �	 Level II – add-on armor available in kits such as the Marine Armor Kit (see
      definition for Marine Armor Kit); and
   �	 Level III – fabricated and attached armor.

Blast Overpressure. Blast overpressure is a complex pressure wave that occurs inside
an armored vehicle defeated by an antitank round. The primary blast injury is limited to
the air-containing structures of the body such as the lungs, gastrointestinal tract, and ears,
and occurs as a result of an incident pressure wave directly impacting the body.

Course of Action. A possible plan open to an individual or commander that would
accomplish or is related to the accomplishment of a particular mission.




                               FOR OFFICIAL USE ONLY
                                        23
Casualty Levels. Military medicine organizes the delivery of care for battlefield injuries
into five levels based on location and capability:

   �	 Level I care is immediate first aid delivered at the scene.
   �	 Level II care consists of surgical resuscitation provided by highly mobile forward
      surgical teams that directly support combat units in the field.
   �	 Level III care is more advanced medical, surgical, and trauma care that can be
      provided through combat support hospitals, similar to civilian trauma centers.
   �	 Level IV care is definitive surgical management provided outside the combat
      zone.
   �	 Level V care is definitive stabilization, reconstruction, or amputation performed at
      one of the major military centers in the United States to which the injured
      warfighter has been evacuated.

Doctrine, Organization, Training, Materiel, Leadership and Education, Personnel,
and Facilities (DOTMLPF) Working Group. The DOTMLPF Working Group is
chartered to review, analyze, and prepare individual universal need statements for further
processing within the Combat Development Tracking System and in accordance with the
Expeditionary Force Development System order. The DOTMLPF Working Group
reviews, analyzes, and assists in the development of an urgent need statement course of
action and ultimately recommends one course of action to the lead advocate. The
DOTMLPF Working Group has been replaced with the Capabilities Development and
Integration Board.

Executive Safety Board. The Executive Safety Board within the Marine Corps seeks to
enhance unit and individual readiness through the reduction of on- and off-duty mishaps,
injuries, and fatalities to Marines and sailors, their family members, and civilian
personnel. The board is responsible to provide recommendations to the Commandant
that will raise safety and suicide prevention awareness among senior leadership of the
Marine Corps; to determine the effectiveness of safety, policy, mishap, and
suicide-prevention programs; and to identify innovative safety and suicide-prevention
initiatives that may have Marine Corps-wide applicability. The Executive Safety Board
is chaired by the Assistant Commandant of the Marine Corps, and members include the
Commander, Marine Corps Forces Atlantic; the Commander, Marine Corps Forces
Pacific; the Commander, Marine Corps Forces Reserve; the Commanding Generals of all
three Marine Expeditionary Forces; the Commanding General of Marine Corps Base
Lejeune; the Commanding General of Marine Corps Base Pendleton; the Commanding
General of Marine Corps Materiel Command; the Commanding General of Marine Corps
Recruiting Command; the Commander, Marine Corps Air Base East; and the
Commander, Marine Corps Air Base West.

Fragmentation. Fragmentation is one of the main effects of an exploding bomb or shell.
The casing shatters, and metal fragments fly in all directions.




                                            24

Frequency Jammers. Frequency jammers broadcast electromagnetic waves, preventing
user-selected electromagnetic receivers from receiving an electromagnetic
communication. Frequency jammers can be used to jam detonation of remote-controlled
explosive devices.

Ground-based Operational Surveillance System (G-BOSS). G-BOSS is an
expeditionary, camera-oriented tool that provides 24-hour detection, tracking, and
recording capability to disrupt insurgent activities in the emplacement and employment
of improvised explosive devices.

High Mobility Multi-Purpose Wheeled Vehicle (HMMWV). The HMMWV is a
lightweight, highly mobile, diesel-powered, four-wheel-drive tactical vehicle that uses a
common chassis to carry a wide variety of military hardware, ranging from machine guns
to tube-launched, optically tracked, wire command-guided antitank missile launchers.
There are 15 HMMWV configurations consisting of cargo and troop carriers, weapons
carriers, ambulances, and shelter carriers. The variants share a common engine, chassis,
and transmission, with 44 interchangeable parts that are used in more than 1 position.

Immediate Warfighter Need. An immediate warfighter need must be resolved in
120 days with a materiel or logistics solution. This special category conveys added
emphasis on timely resolution and enhanced visibility, raising it to the level of the Office
of the Secretary of Defense and the Deputy Secretary of Defense.

Improvised Explosive Device (IED). An IED is a bomb constructed and deployed in
ways other than in conventional military action. An IED may be partially made up of
conventional military explosives, such as an artillery round, attached to a detonating
mechanism.

Joint Rapid Acquisition Cell (JRAC). The JRAC provides a single point of contact and
accountability in the Office of the Secretary of Defense for tracking the timeliness of
actions on combatant commanders’ validated immediate warfighter needs. The JRAC
facilitates meeting the urgent materiel and logistics requirements that the combatant
commanders certify as operationally critical. The JRAC provides regular status reports to
the Deputy Secretary of Defense on the Department’s progress.

Joint Improvised Explosive Device Defeat Organization (JIEDDO). The JIEDDO
was established in January 2006 (previously referred to as the Joint Improvised Explosive
Device Defeat Task Force). The JIEDDO leads, advocates, and coordinates all DoD
actions in support of the combatant commanders and their joint task forces’ efforts to
defeat improvised explosive devices as weapons of strategic influence.

Joint Requirements Oversight Council (JROC). The JROC reviews programs
designated as being of JROC interest and supports the acquisition review process. In
accordance with Chairman of the Joint Chiefs of Staff Instruction 3170.01, the Joint Staff
reviews all Joint Capabilities Integration and Development System documents; the
JROC, at its discretion, may review any Joint Capabilities Integration and Development




                                             25

System issues that may have joint interest or impact. The JROC also reviews programs at
the request of, and makes recommendations as appropriate to, the Secretary of Defense,
the Deputy Secretary of Defense, the Under Secretary of Defense (Acquisition, Logistics,
and Technology), the Assistant Secretary of Defense (Networks and Information
Integration), and the Under Secretary of the Air Force.

Joint Urgent Operational Need (JUON). A JUON is an urgent operational need
identified by a combatant commander involved in an ongoing named operation. The main
purpose of a JUON is to identify and subsequently gain Joint Staff validation and
resourcing of a solution, usually within days or weeks, to meet a specific high-priority
combatant commander need. A JUON should not involve the development of a new
technology or capability; however, the acceleration of an advanced concept technology
demonstration or minor modification of an existing system to adapt to a new or similar
mission is within the scope of the JUON validation and resourcing process.

Low-Intensity Conflict. Low-intensity conflict is a political-military confrontation
between contending states or groups below conventional war and above the routine,
peaceful competition among states. It frequently involves protracted struggles of
competing principles and ideologies. Low-intensity conflict ranges from subversion to
the use of armed force. It is waged in a combination of ways, employing political,
economic, informational, and military instruments. Low-intensity conflicts are often
localized, generally in developing countries, but may have global security implications.

Major Defense Acquisition Program. A major Defense acquisition program is an
acquisition program that is estimated by the Under Secretary of Defense for Acquisition,
Technology, and Logistics to require an eventual total expenditure for research,
development, test and evaluation of more than $365 million in FY 2000 constant dollars
or, for procurement, of more than $2.19 billion in FY 2000 constant dollars.

Marine Corps Requirements Oversight Council. The Marine Corps Requirements
Oversight Council advises the Commandant of the Marine Corps on policy matters
related to concepts, force structure, and requirements validation. The Council is chaired
by the Assistant Commandant of the Marine Corps.

Mine. A mine is an explosive weapon that is hidden underground or underwater and
triggers when an individual or vehicle moves over it or nearby. Mines are often placed in
groups, forming a mine field. Because of the use of mines, most nations now include
specialist mine disposal teams in their armed forces.

Mine Roller. A mine roller is a demining device mounted on the front of a tank or
armored personnel carrier and designed to detonate antitank mines.

Monocoque Vehicle. In a monocoque vehicle, the body is combined with the chassis in
a single unit that utilizes the external skin to support some of the load. This type of
vehicle construction is an alternative to using an internal frame or chassis that is covered
with cosmetic body panels.




                                             26

Operation Iraqi Freedom. Operation Iraqi Freedom funds the continuing efforts to
stabilize Iraq: conducting stability and support operations throughout Iraq, capturing
Hussein regime loyalists, and stopping terrorists from using Iraq as a staging area for
terrorism activities.

Request for Information. A request for information is any specific ad hoc,
time-sensitive requirement for information or products to support an ongoing crisis or
operation not necessarily related to standing requirements. A request for information can
be initiated to respond to operational requirements and is validated in accordance with the
theater command’s procedures.

Urgent Universal Need Statement (UUNS). A UUNS is an exceptional request from a
combatant command-level Marine commander for an additional warfighting capability
critically needed by operating forces conducting combat or contingency operations.
Failure to deliver the capability requested by the UUNS is likely to result in the inability
of units to accomplish their missions and increases the probability of casualties and loss
of life.




                                             27

THIS PAGE LEFT INTENTIONALLY BLANK 





                28

Appendix C. February 17, 2005, Urgent
Universal Need Statement for Mine Resistant
Ambush Protected Vehicles




                     29

30

31

                                                                    *




*
 There is not a version of the UUNS that has a signature from Marine Corps Forces Pacific. The Deputy
Commanding General, Marine Forces Pacific sent e-mail approval of the UUNS, and the UUNS was
forwarded to the MCCDC for processing.



                                                  32

33

34

Appendix D. Mines and Improvised
Explosive Devices: Lessons Learned and
Recommended Actions
DoD has known about the severity of the landmine and IED threat experienced in
low-intensity conflicts at least since its experience in the Vietnam War. Table D-1 shows
the U.S. vehicular loss rates attributable to mines from World War II through Operation
Restore Hope (Somalia).

                   Table D-1. U.S. Vehicular Loss Rates Attributable to Mines

                                                           Loss Rate
                      Conflict                             (percent)
                      World War II                              23
                      Korea                                     56
                      Vietnam                                   70
                      Operation Desert Storm                    59
                      Operation Restore Hope                    60

Regardless, the Department was unprepared for the landmine and IED threat to tactical
wheeled vehicles participating in Operation Iraqi Freedom, just as it was unprepared for
the threat during the Vietnam War, Operations Desert Shield and Desert Storm, and
Operation Restore Hope. Table D-2 indicates the severity of the threat posed by
antivehicular landmines.

                 Table D-2. More than Two-Thirds of Antivehicular Landmines
                            Weigh More than 13 Pounds1

                              Size of Mine             Mines
                                  (lbs)             (Percentage)
                                    0 - 2.2               0
                                   2.2 - 4.4	            3.5
                                   4.4 - 6.6	             2
                                   6.6 - 8.8	             0
                                  8.8 - 11.0              10
                                 11.0 - 13.2              17
                                 13.2 - 15.4             24.5
                                 15.4 - 17.6              29
                                 17.6 - 19.8             3.5
                                 19.8 - 22.0	            5.5
                                    > 22.0                5



1
 This data is an approximation of information obtained from “The Technical Cooperation Program,
Subcommittee on Conventional Weapons Technology, Protection of Soft-Skinned Vehicle Occupants from
Landmine Effects, Technical Report,” 2nd edition, September 1999.


                                 FOR OFFICIAL USE ONLY
                                          35
HMWWV retrofit kits used in Somalia provided mine protection against less than
12 pounds of high explosives. As shown in Table D-2, those HMMWVs were potentially
overmatched by nearly two-thirds of antivehicular landmines. The reaction to landmines
and IEDs was similar in each case–that is, to field vulnerable unarmored tactical wheeled
vehicles and retrofit them with armor kits as they became available to improve crew
survivability. The armor kits addressed side- and under-vehicle attacks from mines and
IEDs. However, in response, the Department over the years did not address the threat to
tactical vehicles by developing requirements for, funding, and acquiring MRAP-type
vehicles to prepare for potential low-intensity conflicts before the beginning of the
insurgent activities in Iraq in 2003.

Landmine Threat
           The primary threats to tactical wheeled vehicles in low-intensity conflicts are
from mines and IEDs. Landmines are preformed explosive charges designed to destroy
personnel, vehicles, and tanks. An IED is a bomb constructed and deployed in ways
other than in conventional military action. An IED may be partially made up of
conventional military explosives, such as an artillery round, attached to a detonating
mechanism. Mines and IEDs can attack vehicles from the bottom, sides, or top,
employing blast, shaped charge, or explosively formed penetrators. Landmines are
inexpensive and readily available on the international arms market, and soldiers require
minimal training to use landmines. Information on the preparation of explosives, shaped
charges, and explosively formed penetrators is also readily available to terrorists and
insurgents on the Internet. The landmine is a weapon that is militarily effective at the
tactical level because it restricts the ability to maneuver; at the operational level because
it slows operational tempo needed to keep pressure on an adversary; and at the strategic
level because it creates casualties that undermine public support. As a result, landmines
and IEDs are used in low-intensity conflicts.

The Army, before the 2003 Iraq invasion, warned both commanders and soldiers that the
Iraqi military had extensive knowledge and 22 years of experience in the use of mines,
booby traps, and IEDs. Ground commanders were told to expect U.S. forces to encounter
significant, sophisticated, and improvised devices, including remote-controlled roadside
bombs and car bombs during the war and occupation of Iraq.

Tactical Vehicle Operations
The Army has historically employed unarmored or lightly armored light tactical wheeled
vehicles in low-intensity conflicts. During the Vietnam War, Operations Desert Shield
and Desert Storm, Operation Restore Hope, and Operation Iraqi Freedom, U.S. personnel
resorted to fielding improvised protection for their tactical wheeled vehicles, such as
sandbagging and steel plate reinforcement. Improvised tactical wheeled vehicle
protection, unless done correctly, can decrease the survivability of the crew and overload
the vehicle, causing serious deterioration in suspension system components.




                               FOR OFFICIAL USE ONLY
                                        36
           Mine protection can be accomplished in three ways:

    �   as part of the basic design of the vehicle;
    �   through permanent factory retrofitting of an existing vehicle; and
    �   with a field-installed, removable bolt-on kit.

A vehicle initially designed to be mine protected provides the best protection.
Unarmored HMMWVs and those with armor improvised in the field or retrofitted are
vulnerable to mines because of the HMMWV’s flat bottom,2 low weight, low ground
clearance, and aluminum body. The “After Action Report on Operation Restore Hope,”
June 13, 1994, observed that the HMMWV, even with a mine protection retrofit kit
developed for Somalia, remained a death trap in the event of an antitank mine detonation.
The mine threat in Somalia included pressure-fused antitank mines with 12 to 16 pounds
of high explosives and remote-controlled antitank mines with 30 to 60 pounds of high
explosives, which easily exceeded the level of mine protection (less than 12 pounds of
high explosives) that was provided by the HMMWV retrofit kits.

In response to the landmine and IED threat encountered in Operation Iraqi Freedom, DoD
has made extensive use of retrofit armor kits to protect their unarmored HMMWV fleet.
The M1114 up-armored HMMWV is an armored version of the HMMWV fielded to
partially address the Iraqi landmine and IED threat. Retrofit kits have been successfully
employed on tactical cargo trucks because trucks ride higher off the ground away from
the explosive blast and provide room to fit wheel and centerline blast deflector and other
protective devices.

The “After Action Report, Operation Restore Hope” June 13, 1994, recommended that
during a low-intensity conflict HMMWVs be used only along a secured, main supply
route. In addition, vehicular movement through unsecured areas should be made only in
mine-resistant and small arms-protected vehicles. The report also recommended that
U.S. Army Training and Doctrine Command, in conjunction with U.S. Army TACOM
Life Cycle Management Command, publish a mission needs statement for mine-resistant
medium tactical vehicle variants to include a personnel carrier, a cargo carrier, a fuel
tanker, a wrecker, a tractor, and convoy security (a gun truck) capable of withstanding
blasts from 16 to 30 pounds of high explosives. Also, the report recommended that
TACOM initiate research into developing mine protection for vehicles that would permit
a mine-damaged vehicle to drive out of an engagement area and to withstand larger mines
and possibly shaped-charge-equipped mines. The “After Action Report, Operations
Desert Shield and Desert Storm” recommended the Army Tank Automotive Command
require mine-resistant technologies be included in the design of all future tactical
vehicles. Both the “After Action Report, Operation Restore Hope” and the “After Action
Report, Operations Desert Shield and Desert Storm” were distributed throughout the
Army and the Marine Corps.


2
 According to an Army representative, a flat bottom tactical wheeled vehicle with a monocoque hull that is
properly engineered to protect against landmines may provide protection from a landmine underbody
attack.


                                   FOR OFFICIAL USE ONLY
                                            37
Mine Resistant Ambush Protected Vehicles
MRAP vehicles are special-purpose vehicles that have a V-shaped monocoque hull and
protect against the three primary kill mechanisms of mines and IEDs: fragmentation,
blast overpressure, and acceleration. Several countries have countered the mining of
routes by terrorists by developing mine-resistant vehicles that reduce mine injuries by as
much as 60 to 70 percent while virtually eliminating fatalities. Rhodesia developed
mine-resistant vehicle technology during the Rhodesian Bush War (1960-1980), and in
the early 1970s South Africa began to develop mine-resistant vehicles.

A “Mine Protected Vehicle (MPV) Study Report,” April 2, 2002, prepared for the Army
Project Manager for Mines, Countermine and Demolitions, Countermine Division, stated
that since the early 1990s U.S. forces have been increasingly engaged in a number of
peacekeeping, peace enforcement, and humanitarian missions where landmines present a
significant challenge. The nature of the missions means greater exposure to the hazards
of landmines to occupants of tactical wheeled vehicles since these vehicles are used more
extensively in low-intensity conflicts. For more than 10 years, the Project Manager for
Mines, Countermine and Demolitions has been exploring materiel options to provide
increased protection for U.S. forces against landmines. As of April 2002, only a limited
number of specially designed mine-resistant or mine-protected vehicles have been
procured, based on requests from Bosnia and Kosovo. In addition, the report stated that
there is no separate formal operational requirement for a mine-protected vehicle. An
effort to obtain additional limited quantities of mine-protected control vehicles to meet
contingency needs was terminated in May 2001 by the Department of the Army Deputy
Chief of Staff for Plans and Operations. The study looked at mine-resistant or
mine-protected vehicles in use by other countries to determine which system or systems
offered the most promise to the United States. The April 2002 study examined
mine-protected vehicle alternatives such as the Dingo, Lion I (also known as the Cougar),
Lion II (also known as the Buffalo), RG-32 Scout, Casspir MKII, RG-31, and Mamba II.

Vehicle Availability
In November 2004, the MCSC received a draft copy of the MRAP UUNS submitted in
February 2005. The former Program Manager for Motor Transport stated that, based on
the draft requirements in that UUNS, MCSC released a request for information in
December 2004 on commercially available, off-road and highway-suitable vehicle
platforms capable of providing Marines with ballistic and mine protection. The request
for information identified nine potential vendors of MRAP-type vehicles including the
makers of Casspir, Mamba MK III, RG-31, Cougar, and Eagle IV.




                                            38

Sources for this Appendix
Taming the Landmine, Peter Stiff, Galago Publishing (Pty) Ltd, South Africa, 1986

“After Action Report, Operations Desert Shield and Desert Storm,” November 12, 1991,
Countermine Systems Directorate, U.S. Army Belvoir Research, Development and
Engineering Center, Fort Belvoir, VA 22060-5606

“After Action Report, Operation Restore Hope,” June 13, 1994, Headquarters, U.S. Army
Aviation and Troop Command, Countermine Systems Directorate, Belvoir Research,
Development and Engineering Center, Fort Belvoir, VA 22060-5606

“Protection of Soft-Skinned Vehicle Occupants from Landmine Effects,” The Technical
Cooperation Program, Subcommittee on Conventional Weapons Technology, Technical
Report, 2nd edition, September 1999

“Mine Protected Vehicle (MPV) Study Report,” April 2, 2002, Countermine Division,
Project Manager for Mines, Countermine and Demolitions, U.S. Army, Fort Belvoir, VA
22060-5811

Jane’s Armour and Artillery, 2003-2004, Jane’s Information Group Limited, Surrey,
United Kingdom, 2003

“Commander’s Reference Guide, Land Mine and Explosive Hazards (Iraq),” Training
Circular 20-32-5, Headquarters, Department of the Army, February 2003

“Final Report on Mine Protection for Vehicular Systems in South Africa for Past
30 Years,” June 6, 2003, U.S. Army European Research Office, London




                                          39

THIS PAGE LEFT INTENTIONALLY BLANK 





                40

Appendix E. Congressional Legislation
The Duncan Hunter National Defense Authorization Act for Fiscal Year 2009 has
enacted the following language regarding the fulfillment of urgent operational needs.

SEC. 801. ASSESSMENT OF URGENT OPERATIONAL NEEDS FULFILLMENT.
        (a) ASSESSMENT REQUIRED.—The Secretary of Defense shall commission a
study and report by an independent commission or a federally funded research and
development center to assess the effectiveness of the processes used by the Department
of Defense for the generation of urgent operational need requirements, and the
acquisition processes used to fulfill such requirements. Such assessment should include
the following:
       (1) A description and evaluation of the effectiveness of the procedures used to
generate, validate, and fulfill warfighting requirements through the urgent operational
need and joint urgent operational need processes, including—
       (A) the extent to which joint and urgent operational need statements are used to
       document required capability gaps or are used to request specific acquisition
       outcomes, such as specific systems or equipment;
       (B) the effectiveness of the processes used by each of the Military Departments
       and the various elements of the Department of Defense to prioritize and fulfill
       joint and urgent operational needs, including the rapid acquisition processes of the
       Military Departments, as well as the Joint Improvised Explosive Device Defeat
       Organization and the Joint Rapid Acquisition Cell; and
       (C) the timeliness and responsiveness of the processes used by the Military
       Departments and the various elements of the Department of Defense to review
       and validate urgent operational need statements and joint urgent operational need
       statements.
        (2) An evaluation of the extent to which joint urgent operational need statements
are used to avoid using service-specific urgent operational need and acquisition processes
or to document non-urgent capability gaps.
       (3) An evaluation of the extent to which joint acquisition entities maintain
oversight, once a Military Department or Defense agency has been designated as
responsible for execution and fielding of a capability in response to a joint urgent
operational need statement, including oversight of—
       (A) the responsiveness of the Military Department or agency in execution;
       (B) the field performance of the capability delivered in response to the joint
       urgent operational need statement; and
       (C) the concurrent development of a long term acquisition and sustainment
       strategy.
       (4) Recommendations regarding—
       (A) best practices and process improvements to ensure that urgent operational
       needs statements and joint urgent operational needs statements are presented to



                                            41

      appropriate authorities for review and validation not later than 60 days after the
      documents are submitted;
      (B) common definitions and standards for urgent operational needs statements and
      joint urgent operational need statements;
      (C) best practices and process improvements for the creation, evaluation,
      prioritization, and fulfillment of urgent operational need statements and joint
      urgent operational need statements; and
      (D) the extent to which rapid acquisition processes should be consolidated or
      expanded.
(b) SUBMISSION TO CONGRESS. —Not later than 270 days after the date of the
enactment of this Act, the Secretary of Defense shall submit to the congressional defense
committees the report resulting from the study conducted pursuant to subsection (a).




                                           42

THIS PAGE LEFT INTENTIONALLY BLANK 





                43

Appendix F. Key Marine Corps Officials
The following chart lists key Marine Corps officials and their tenure in their positions
between January 2005 and August 2008. Each key position title is listed to the left of the
chart and is followed by the names and length of tenure of each individual.

For the bottom two lines on the chart, Commanding General and Deputy Commanding
General, Multi-National Force-West, the dates only represent when the Marine
Expeditionary Forces were in theater. The dates those individuals held those positions
may be different.

If a line on the chart is shaded in green, that individual was interviewed by the audit
team. The upside-down pink triangle signifies the date I Marine Expeditionary Force
(Forward) submitted the MRAP UUNS. The blue square represents when the
Commandant of the Marine Corps directed the replacement of all HMMWVs in theater
with the M1114 up-armored HMMWV. The key is located in the bottom right-hand
corner of the page, and the acronyms used on the chart are defined below.


Acronyms and Abbreviations
Asst                  Assistant
BGen                  Brigadier General
CD&I                  Combat Development and Integration
CG                    Commanding General
DCG                   Deputy Commanding General
Gen                   General
LtGen                 Lieutenant General
I&L                   Installation and Logistics
MajGen                Major General
MARFORPAC             Marine Corps Forces, Pacific
MARCENT               Marine Corps Central Command
MEF                   Marine Expeditionary Force
MNF-W                 Multi-National Force-West
PP&O                  Plans, Policies and Operations
P&R                   Programs and Resources




                                            44

                                                   Apr-05          Jul-05          Oct-05         Jan-06       Apr-06           Jul-06       Oct-06      Jan-07         Apr-07        Jul-07          Oct-07       Jan-08          Apr-08          Jul-08

Commandant of the                                                                      Jan-05 - Nov-06                                                                                           Nov-06 - Aug-08
  Marine Corps                                                                      Gen Michael Hagee                                                                                          Gen James Conway

Asst Commandant                                    Jan-05 - Sep-05                                                                                       Sep-05 - Jul-08
                                                                            Jul-08 - Aug-08
                                                                                                                                                                                                                                                       Gen James
of the Marine Corps                              Gen William Nyland                                                                                    Gen Robert Magnus
                                                                                Amos



    Deputy                                                                      Jan-05 - Aug-06                                                                                    Aug-06 - Jul-08                                                   Jul-08 - Aug-08
Commandant, CD&I1                                                            LtGen James Mattis                                                                                  LtGen James Amos                                                     LtGen George
                                                                                                                                                                                                                                                          Flynn



    Deputy                                                                           Jan-05 - Oct-06                                                                                             Nov-06 - Aug-08
Commandant, PP&O                                                                    LtGen Jan Huly                                                                                         LtGen Richard Natonski

       Deputy                                      Jan-05 - Sep-05                                                                   Sep-05 - Sep-07                                                                       Sep-07 - Aug-08
    Commandant, I&L                          LtGen Richard Kelly                                                                LtGen Richard Kramlich                                                              MajGen Edward Usher

        Deputy                                   Jan-05 - Aug-05                                                          Aug-05 - Jun-07                                                                Jun-07 - May-08                      May-08 - Aug-08
    Commandant, P&R                    LtGen Robert Magnus                                                          LtGen Emerson Gardner                                                             LtGen John Castellaw                   LtGen Duane Thiessen



 CG, Marine Corps                                                           Jan-05 - Jun-06                                                                                                 Sep-06 - Aug-08
Systems Command                                                       BGen William Catto                                                                                                BGen Michael Brogan

    CG, Marine Corps                      Jan-05 - Jul-05                                                           Jul-05 - May-07                                                                            May-07 - Aug-08
     Warfighting Lab             BGen Thomas Waldhauser                                                         BGen Randolph Alles                                                                        BGen Thomas Murray




                                                   Apr-05          Jul-05          Oct-05         Jan-06       Apr-06           Jul-06       Oct-06      Jan-07         Apr-07        Jul-07          Oct-07       Jan-08          Apr-08          Jul-08
    CG, MARFORPAC/                       Jan-05 - Aug-05                                          Aug-05 - Aug-06                                                 Aug-06 - Oct-07                                             Nov-07 - Aug-08
       MARCENT2                      LtGen Wallace Gregson                                    LtGen John Sattler                                             LtGen James Mattis                                        LtGen Samuel Helland

   CG, I Marine                                                                 Jan-05 - Aug-06                                                                   Aug-06 - Oct-07                                             Nov-07 - Aug-08
Expeditionary Force                                                           LtGen John Sattler                                                             LtGen James Mattis                                        LtGen Samuel Helland

   CG, II Marine                                                                Jan-05 - Aug-06                                                                                     Aug-06 - Jul-08                                                  Jul-08 - Aug-08
                                                                                                                                                                                                                                                      LtGen Dennis
Expeditionary Force                                                          LtGen James Amos                                                                                    LtGen Keith Stalder                                                     Hejlik



                                                                    Feb-05 - Feb-06                                             Feb-06 - Feb-07                                        Feb-07 - Feb-08                                Feb-08 - Aug-08
      CG, MNF-W3               Jan-05 - Feb-05
                                LtGen John
                                  Sattler               MajGen Stephen Johnson (II MEF)                             MajGen Richard Zilmer (I MEF)                             MajGen Walter Gaskin (II MEF)                     MajGen John Kelly (I MEF)

                               Jan-05 - Feb-05                      Feb-05 - Feb-06                                             Feb-06 - Feb-07                                        Feb-07 - Feb-08                                Feb-08 - Aug-08
      DCG, MNF-W                BGen Dennis
                                    Hejlik                  BGen Charles Patton (II MEF)                                BGen Robert Neller (I MEF)                               MajGen John Allen (II MEF)                     BGen Martin Post (I MEF)
1
  The Deputy Commandant, Combat Development and Integration (DC CD&I) also serves as the Commanding General, Marine Corps Combat Development Command.                                                  KEY:
2
  In August 2005, the command responsibilities of Marine Forces Pacific (MARFORPAC) were combined with those of Marine Corps Central Command (MARCENT).
3
  The Commanding General, Multi-National Force-West is also the Commanding General, Marine Expeditionary Force (Forward) (MEF (Fwd)). The Marine Corps rotates I MEF and                                           = Interviewed by audit team
II MEF into Iraq each year. When the February 17, 2005, MRAP UUNS was signed, I MEF (Fwd) was in Iraq. It rotated out after February 17, 2005, and II MEF (Fwd) took its place.
                                                                                                                                                                                                                   = February 17, 2005, MRAP UUNS

                                                                                                                                                                                                                   = Commandant’s M1114 decision
                                                                                                                           45
THIS PAGE LEFT INTENTIONALLY BLANK 





                47

Appendix G. Timeline for the Urgent
Universal Need Statement for Mine Resistant
Ambush Protected Vehicles
The following chart is a timeline of fielded capabilities compared with mine and IED
attack trends. The top line of the chart depicts Multi-National Force-West IED attack
trends from January 2004 to December 2007.

Letters A through E on the second line of the chart represent the Secretary of Defense and
the Deputy Secretary of Defense memoranda, issued between September 2004 and June
2005, that established the JRAC and Joint Improvised Explosive Device Defeat Task
Force and authorized them to expedite procurement of equipment to save lives. In
addition, letter F on the second line represents when the Chairman of the Joint Chiefs of
Staff issued an instruction on the JUON process. Specifically, letters A though
F represent:

 A     Deputy Secretary of Defense Memorandum, “Meeting the Immediate Warfighter
       Needs (IWNs),” September 3, 2004

       Deputy Secretary of Defense Memorandum, “Meeting Immediate Warfighter
 B
       Needs (IWNs),” November 15, 2004

       Secretary of Defense Memorandum, “Fiscal Year 2005 Rapid Acquisition
 C     Authority (RAA),” January 25, 2005

       Secretary of Defense Memorandum, “Time Critical Actions,” March 22, 2005
 D
       Deputy Secretary of Defense Memorandum, “Joint Improvised Explosive Device
 E     (IED) Defeat,” June 27, 2005

  F    Chairman of the Joint Chiefs of Staff Instruction, CJCSI 3470.01, “Rapid
       Validation and Resourcing of Joint Urgent Operational Needs (JUONs) in the
       Year of Execution,” July 15, 2005

There are three timelines on the chart. The top timeline shows the MRAP events
pertaining to the two MRAP UUNSs. The first dark blue area on the timeline represents
the first UUNS and the second dark blue area represents the two MRAP JUONs and the
second MRAP UUNS.

The second timeline shows the Hardened Engineer Vehicle (HEV) and Joint Explosive
Ordnance Disposal Rapid Response Vehicle (JERRV) events, both MRAP-type vehicles.
The bottom timeline shows other counter-IED capabilities the Marine Corps fielded
between April 2004 and February 2007. The key for the timelines can be found in the
middle of the chart on the right-hand side, as well as the definitions of the acronyms.




                                           48

Multi-National Force-West (MNF-W) Improvised Explosive Device (IED) Attack Trends from January 2004 to December 20071
     Total IED Attacks
     Under-Vehicle
     IED Attacks



Memoranda / Instruction                                                         A           B            C      D               E    F
    MRAP

            Oct-03                                                              Oct-04            Jan-05        Apr-05         Jul-05            Oct-05                         Apr-06           Jul-06          Oct-06           Jan-07          Apr-07          Jul-07           Oct-07
                                        Nov-04                                                                               Jun-05                                      May-06                                                                Nov-06
                     Marine Corps Systems Command receives                                                            MCCDC briefs MROC                         MNF-W submits a Joint                                              First contracts awarded for MRAP
                  draft Mine Resistant Ambush Protected (MRAP)                                                          on status of MRAP                        Staff Rapid Validation                                                vehicles in response to the
               vehicle Urgent Universal Need Statement (UUNS) and                                                    UUNS – “proceeding, but                        and Resourcing                                                     requests for 1,185 vehicles
                          develops an acquisition strategy                                                            issues impact UUNS”                           Request  for 185
                                                                                                                                                  Aug-05
                                                                                       Feb-05                                                                       MRAP vehicles                                  Sep-06                               May-07
                                                                                                                                          MCCDC briefs MROC on
                                                                           I Marine Expeditionary Force                                    status of MRAP UUNS                                                 I MEF submits an             Secretary of Defense designates
                                                  Dec-04                     (MEF) submits UUNS for                                       – “proceeding, no issues”               Jul-06                         UUNS for 805              MRAP vehicles as the number one
                                          Marine Corps Systems                1,169 MRAP vehicles                                                                      MNF-W submits a second                    MRAP vehicles                 acquisition priority for the
                                         Command issues MRAP
                                                                                                                                     Mar-05                          Joint Staff Rapid Validation and                                           Department of Defense
                                        Request for Information –                                                                                                                                                                                                                Sep-07
                                       9 potential vendors respond                                                           Executive Safety Board –                    Resourcing Request for                                                                     Under Secretary of Defense
                                                                                                Mar-05                          brief on MRAP given;                     1,000 MRAP vehicles                                             Oct-06
                                                                                                                                                                                                        Aug-06                                                     (Acquisition, Technology, and
                                                                               Marine Corps Combat Development                board minutes state that                                                                              MCCDC issues a
                                                                                                                                                                                                  MROC reviews the                                                 Logistics) designates MRAP an
                                                                                Command (MCCDC) briefs Marine               the Assistant Commandant                                                                              Statement of Need for
                                                                                                                                                                                                  urgent requests for                                             Acquisition Category ID program
                                                                           Requirements Oversight Council (MROC) on         of the Marine Corps favored                                                                            805 MRAP vehicles
                                                                         status of MRAP UUNS – “proceeding, no issues”         mine resistant vehicles                                           1,185 MRAP vehicles

     HEV/
    JERRV
            Oct-03           Jan-04           Apr-04            Jul-04           Oct-04           Jan-05         Apr-05         Jul-05           Oct-05         Jan-06          Apr-06           Jul-06          Oct-06           Jan-07          Apr-07          Jul-07           Oct-07
                                                                                            Dec-04                                        Aug-05                Acronyms:                                                                      Key:
             Dec-03                                    Apr-04
                                                                                        Above threshold                                First of 122                HEV              Heavy Engineering Vehicle
    I MEF submits an UUNS                         MCCDC issues a                                                                                                                                                                                    Important Event
                                                                                    reprogramming approved                          JERRVs delivered               HMMWV            High Mobility Multi-Purpose Wheeled Vehicle
        for 27 Hardened                          Statement of Need
                                                                                          for 12 HEVs                                                              JERRV            Joint Explosive Ordnance Disposal Rapid Recovery Vehicle        Urgent Universal Need Statement
    Engineer Vehicles (HEV)                         for 27 HEVs
                                                                   Oct-04                                        Apr-05                                            MAK              Marine Armor Kit
                                                                                                                                                                   MCCDC            Marine Corps Combat Development Command                         Joint Staff Rapid Validation and Resourcing Request
                                                             First HEV deployed                         Joint IED Defeat Task Force2
             Jan-04                       Mar-04                in response to                   approves the release of Iraq Freedom Fund
                                                                                                                                                                   MEF              Marine Expeditionary Force                                      Statement of Need
      December 2003 HEV           Marine Corps receives                                                                                                            MNF-W            Multi-National Force-West
                                                               December 2003                     funds for the procurement of 122 JERRVs,                                                                                                           Marine Requirements Oversight Council Event
     UUNS is briefed to and        Iraqi Freedom Fund             HEV UUNS                          of which 38 are for the Marine Corps                           MRAP             Mine Resistant Ambush Protected
     validated by the MROC         funding for 15 HEVs                                                                                                             MROC             Marine Requirements Oversight Council                       $   Funding
                                                                                                                                                                   UUNS             Urgent Universal Need Statement                                 Fielding


    Counter-IED
      Actions
            Oct-03           Jan-04           Apr-04            Jul-04           Oct-04           Jan-05         Apr-05         Jul-05           Oct-05         Jan-06          Apr-06           Jul-06          Oct-06           Jan-07          Apr-07          Jul-07           Oct-07

                              Jan-04                                  Oct-04                        Jan-05                                      Sep-05                          Dec-05
                      MROC approves initiative             MROC decision to procure First Marine Armor Kits                                  M1114 fielding         Marine Corps receives $178.6M
                    to immediately provide armor             498 M1114s and MAKs            (MAK) used in theater                               begins          in supplemental funding for up-armored
                                                              (Generation III armor)                                                                              HMMWVs and $362.7M for jammers                                  Oct-06
                      to all vehicles involved in
                                                            for all other High Mobility                                                                                                                                 First Mine Roller Systems              Feb-07
                       Operation Iraqi Freedom
                                                             Multi-purpose Wheeled            May-05                    May-05                                 Jun-05                                                         used in theater           First Ground-based
                                                  Apr-04       Vehicles (HMMWV) Marine Corps receives Inspector General of the                   Commandant decides to procure and                                                                    Operational Surveillance
                                                                                      $216.8M in emergency        Marine Corps report           distribute M1114s with a goal of 100%                                                                 Systems used in theater
                                         Marine Corps completes                                                                                                                                 May-06
                                      Generation I armor installation                supplemental funding for      favors the M1114;           in theater; 3 and 4-Star General Officers     First frequency                 Sep-06
                                 and begins fielding Generation II armor               up-armored HMMWVs          however, work does             meet on June 27, 2005, and formalize           jammers              Marine Corps receives
                                                                                                                 not include evaluating               the Commandant’s decision              used in theater    $557.5M in supplemental funding
1                                                                                                                   any type of mine               to replace HMMWVs with M1114                                    for up-armored HMMWVs
    The IED attack trends are approximations.
2                                                                                                                   resistant vehicle                    up-armored HMMWVs
    The name of the Joint IED Defeat Task Force changed to the Joint IED Defeat Organization

    on February 14, 2006.

                                                                                                                          FOR OFFICIAL USE ONLY
                                                                                                                                     49
THIS PAGE LEFT INTENTIONALLY BLANK 





                51

Appendix H. Mine Resistant Ambush
Protected Vehicle: Urgent Needs Process
and Management Objectives
The following chart illustrates the Marine Corps Urgent Universal Need Statement
(UUNS) process and the management objectives it is designed to achieve. The chart also
depicts whether or not the Marine Corps met those management objectives in the
processing of the February 17, 2005, Mine Resistant Ambush Protected (MRAP) Vehicle
UUNS.

The management objectives of the UUNS process are listed in the top left-hand corner of
the page, and are shaded in different colors. Those colors correspond with the documents
and procedures listed in the process section of the chart. In other words, if a document or
action helped to meet management objective #1, it would be blue. The chart’s key and a
list of acronym definitions can be found in the lower right-hand corner of the page.

The chart itself is divided into three sections: General Officer Activities, UUNS Process,
and Marine Corps Systems Command Activities. The top section of the chart shows
relevant Marine Corps General Officer activities and decisions made during the MRAP
UUNS processing.

The middle section depicts the UUNS process as prescribed by Marine Corps
Order 3900.15A and also shows the MRAP UUNS as it moved through that process. If
there is a red “x” on the chart, it means that part of the process was not completed.

Finally, the bottom section of the chart shows the activities Marine Corps Systems
Command was working on in advance of the MRAP UUNS being formally submitted to
the Marine Corps Requirements Oversight Council for approval.




                                            52

Management Objectives                                                                                                                                                                              Based on the processes laid out below, were the management objectives met?
Provide a systematic approach for warfighting development by:                                                                                                                                             1.) Yes, the warfighter need was identified by the UUNS.
   1.) Identifying warfighter-needed capabilities                                                                                                                                                         2.) No, MCCDC and the DWG did not develop a Course of Action for
   2.) Identifying a course of action to meet the warfighter-needed capability                                                                                                                            MRAP vehicles.
   3.) Validating warfighter needs                                                                                                                                                                        3.) No, the UUNS was never presented to the MROC; therefore, it could
   4.) Obtaining funding                                                                                                                                                                                  not be validated.
                                                                                                                                                                                                          4.) No, the UUNS was not MROC approved so funding was not sought.
   5.) Translating capabilities into requirements
                                                                                                                                                                                                          5.) No, MCCDC did not write a Statement of Need.
   6.) Obtaining and fielding capability
                                                                                                                                                                                                          6.) No, MRAPs were not fielded as a result of the 2005 UUNS.
         General Officer Activities


                                                                                                                                                                               Inspector General of the                Deputy Commandant,
                                                                                                                                               Executive Safety Board                                                                                                Executive Off-Site
                                                                                                                                                                                     Marine Corps                    Installation and Logistics
                                                                                                                                                 Held a conference in              Issued a report in            Notified several General Officers              3- and 4-Star General
                                                                                                                                               March 2005 in which a            May 2005 that favored             by e-mail that on June 7, 2005,              Officers met on June 27,
                                                                                                                                              brief about mine resistant         the M1114; however,               the Commandant decided to                   2005 and formalized the
                                                                                                                                               vehicles was presented             work did not include            procure and distribute M1114s                Commandant’s decision
                                                                                                                                                                                evaluating any type of             with a goal of 100% in theater             to replace HMMWVs with
                                                                                                                                               Notes from the conference
                                                                                                                                                                                mine resistant vehicle           and stated “we are still operating               M1114 up-armored
                                                                                                                                                state that the Assistant
                                                                                                                                               Commandant “favors new                                                   in a HMMWV world”                              HMMWVs
                                                                                                                                                mine resistant vehicles”

                                                                                                                                                                                                                                                                     Deputy Commandant,
         Urgent Universal Need Statement Process




                                                                                                                                                                 MCCDC
                                                                                                         Marine Corps Combat                                                                                                                                            Programs and
                                                                                                        Development Command                                                                                                                                              Resources
                                                     Marine Corps                                             (MCCDC)                            Briefed the MRAP UUNS to the DWG in
                                                                                                                                                 March 2005 and updated MROC on the                                                                                  Evaluates UUNS and
                                                       Forces
                                                                                 2/17/2005             Responsible for making                   status of the UUNS 3 separate times, but                                                                             determines how it will
                                                                                MRAP UUNS              recommendations to the                        never presented it for a decision                                                                                    be funded
                                                     Identify needed
                                                   capabilities via the                               DOTMLPF Working Group
                                                                                                                                                                                                               Marine Requirements
                                                    Urgent Universal                                      (DWG) and Marine
                                                                                                                                                                                                                Oversight Council
                                                    Need Statement                                     Requirements Oversight                                      UUNS                                                                     Approved
                                                                                                                                                                                                                     (MROC)
                                                    (UUNS) process                                    Council (MROC) regarding                                                                                                               UUNS
                                                                                                                                                                                                               Reviews requirements                                         MCCDC
                                                                                                                UUNS                                                                        COA
                                                                                                                                                                                                                documentation and                                          Tasked with                     SoN
                                                                                                                                                       DOTMLPF Working Group                                    briefing information                                       developing
                                                                                                                                                             (DWG)                         UUNS                 and then approves                                    requirements from the
                                                                                                                                                                                                                       UUNS                                           UUNS by translating
                                                                                                                                                         Tasked with developing
                                                                                                                                                             and selecting a                                                                                             capabilities into
                                                                                                                                                         Course of Action (COA)*                                                                                        requirements by
                                                                                                                                                                                                                                                                     writing a Statement of
                                                                                                                                                                                                                                                                           Need (SoN)


                                                                                         Marine Corps Systems                                                                                                                                 ACRONYMS:
                                                                                                                                             Marine Corps Systems                                 Mine Resistant
    Marine Corps Systems




                                                                                          Command (MCSC)                                                                                                                                        COA                  Course of Action
     Command Activities




                                                            Draft                                                                             Command (MCSC)                                      Vehicle Industry                              DWG                  DOTMLPF Working Group
                                                          MRAP UUNS                    Developed an acquisition                                                                                                                                 HMMWV                High-Mobility Multi-Purpose Wheeled Vehicle
                                                                                                                                            Started market research                            Responses to the RFI                             MCCDC                Marine Corps Combat Development Command
                                                                                        strategy for MRAPs in                                based on a draft MRAP                                                                              MCSC                 Marine Corps Systems Command
                                                                                           November 2004                                                                       RFI             showed there were 9
                                                                                                                                            UUNS in November 2004                                                                               MRAP                 Mine Resistant Ambush Protected
                                                                                                                                                                                              potential vendors for the                         MROC                 Marine Requirements Oversight Council
                                                                                                                                            and issued a Request for                              MRAP vehicles                                 RFI                  Request for Information
                                                     Based on a draft copy of        Acquisition Strategy:
                                                                                                                                               Information (RFI) in                                                                             SoN                  Statement of Need
                                                      the MRAP UUNS that             - Commercial Off-the-Shelf purchase
                                                                                     - Probability of a 75-90% solution                          December 2004                                                                                  UUNS                 Urgent Universal Need Statement
                                                      was sent in November
                                                       2004, MCSC began              - Site visits to verify production facility capacity
                                                                                     - Prior testing with Aberdeen Proving Ground                                                                                                 KEY:
                                                      work to prepare for the
                                                       MRAP procurement.             - Begin fielding in less than 18 months (i.e.                                                                                                       = related to objective #1          = related to objective #6
                                                                                     March 2006)                                                                                                                                         = related to objective #2          = General Officer activity
                                                                                                                                                                                                                                         = related to objective #3          = required action not completed
                                 * In March 2005, the DWG submitted an information paper to the Deputy Commandant for Combat Development and Integration. In an interview with the audit team, the former Deputy
                                 Commandant acknowledged his receipt of the information paper and said he directed that work continue on a solution to the UUNS. However, he did not know why the DWG did not                            = related to objective #4
                                                                                                                                                                                                                                                                            = funding
                                 develop a course of action.                                                                                                                                                                             = related to objective #5
                                                                                                                                               FOR OFFICIAL USE ONLY
                                                                                                                                                          53

THIS PAGE LEFT INTENTIONALLY BLANK 





                55

Appendix I. Process for Joint Urgent
Operational Needs
The following chart illustrates the Joint Urgent Operational Need (JUON) process.

The top line of the chart shows the combatant commander and Joint Staff processes as
prescribed by Chairman of the Joint Chiefs of Staff Instruction 3470.01. The bottom line
of the charts shows the Joint Rapid Acquisition Cell and Joint Improvised Explosive
Device Defeat Organization processes. The chart’s key can be found in the lower
right-hand corner of the page, and the acronyms used on the chart are defined below.


Acronyms
C-IED                 Counter-Improvised Explosive Device
COCOM                 Combatant Command
DDRA                  Deputy Director for Resources and Acquisition
FCB                   Functional Capabilities Board
IWN                   Immediate Warfighter Need
JIEDDO                Joint Improvised Explosive Device Defeat Organization
JIPT                  Joint IED Defeat Integrated Process Team
JR2AB                 Joint IED Defeat Requirements, Resources, Acquisition Board
JRAC                  Joint Rapid Acquisition Cell
JUON                  Joint Urgent Operational Need
SRSG                  Senior Resource Steering Group




                                           56

                                                                          Deputy Director                                                                                                                                                                    Deputy Director
        Combatant Commands                      Candidate               for Resources and        Candidate          Functional Capabilities Board (FCB)2 /                                     Functional Capabilities                                     for Resources and           J-8 Validated        Director,
                                                                                                                                                                              Validation                                            Validation
                                                 JUON1                                            JUON1                                                                    Recommendation                                        Recommendation
                                                                                                                                                                                                                                                                                          JUONs
            (COCOM)                                                    Acquisition (DDRA),                                  FCB Working Group                                                    Board (FCB) Chair                                        Acquisition (DDRA),                                JRAC
                                                                                                                                                                                                                                                                                                                         A
                                                                                J-8                                                                                                                                                                                J-8
            Identify, certify, and                                        Capabilities and                        Triages (meets or does not meet criteria) JUON                               Reviews recommendation                                       Validates or does not
           prioritize Joint Urgent                                      Acquisition Division                    request and charters FCB Working Group. Typical                                   from the FCB Working                                      validate a JUON.3 If
             Operational Needs                                         assigns the JUON to a                    FCB Working Group membership includes selected                                   Group and determines                                      validated, the JUON is
          (JUONs). Direct urgent                                       Functional Capabilities                  subject matter experts from the COCOM, Services,                               priority within portfolios in                               sent to the Joint Rapid
          operational needs more                                            Board (FCB).                         and Joint Staff. The FCB Working Group reviews                                 case of multiple JUONs.                                   Acquisition Cell (JRAC).
           appropriately satisfied                                                                               JUON requests and evaluates proposed funding                                        Provides a JUON                                        The DDRA may also
        through a Service process                                                                               options/strategies and makes a recommendation to                                        validation                                             recommend the
           to the already existing                                                                                 the FCB Chair. It may also recommend lead                                     recommendation to the                                   designation of a JUON as
              Service process.                                                                                             Service/Agency responsibility.                                            DDRA or the Joint                                    an Immediate Warfighter
                                                                                                                                                                                               Capabilities Board (JCB).3                                    Need (IWN). If not
                                                                                                                                                                                                                                                         validated, a JUON usually
                                                            Feedback
                Service
                                                                                                                                                                                                                                                           becomes part of an on-
                 Need
                                                                                                                                                                                                                                                            going capability gap
                                  Feedback




                                                                                                                                                                                                                                                               analysis by J-8.

               Service
               Process

                                                                                                   J-8-Validated
                                   A                                                                Non C-IED
                                               Director, Joint Rapid Acquisition                  JUON / JRAC-
                                                                                                                          Designated Service/
                                                          Cell (JRAC)                            Designated IWN                Agency

                                    Reviews the JUON received from the                                                 Executes a JUON materiel or
                                  COCOM while the JUON is validated by Joint                         Feedback         logistics solution as requested                                                                                                                                    Joint IED Defeat Senior
                                                   Staff.                                                                 by the Director, JRAC.                                                                                                                                                 Resource
                                                                                                                                                                                                                                                                                         Steering Group (SRSG)
                                   Once the J-8 validates a JUON, the JRAC
                                     forwards the JUON to the JIEDDO if the                                                                                                                                                                                                          Reviews Joint IED Defeat initiatives
                                  requirement is related to counter-improvised                                                                                                                                                                                                          recommended by the JIPT and
                                                                                                  J-8-Validated
                                      explosive device (C-IED) efforts or to a                                                                                                                                                                                                        valued at greater than $25 million
                                                                                                  C-IED JUON /                                            J-8-Validated
                                          designated Service/Agency if the                           JRAC-                                                                         Joint IED Defeat                                                                                    and makes recommendations to
                                                                                                                      Joint Improvised Explosive          C-IED JUON /                                                        Joint IED Defeat                                        the Deputy Secretary of Defense
                                        requirement is not C-IED related. A                      Designated IWN                                              JRAC-                  Requirements,
                                                                                                                      Device Defeat Organization                                                                         Integrated Process Team                                               for disposition.
                                  combination of Services and/or JIEDDO may                                                                              Designated IWN          Resources, Acquisition
                                                                                                                              (JIEDDO)                                                                                              (JIPT)
                                  seek a solution to a requirement. If a JUON                                                                                                       Board (JR2AB)
                                      is not C-IED related and validated as a                                         Determines whether the JUON                                   Reviews JUONs during                  Discusses C-IED initiatives
                                     recommended IWN by the Joint Staff, a                                             is C-IED related. If the JUON                                 weekly meetings and                           and makes                         Solution
                                    JRAC Council is convened, subject to the                                          is C-IED related and a materiel                            discusses materiel solutions               recommendations to the               Recommendation
                                     availability of funds, and will designate a                                      solution is sought, the JUON is                           to the joint urgent operational          Director, JIEDDO or the Joint
                                    JUON as an IWN if the JUON meets IWN                                                    forwarded to the Joint                                            need.                      IED Defeat Senior Resource
                                                                                                  Acceptance or
                                                       criteria.4                                                       Improvised Explosive Device                                                                        Steering Group (SRSG),
                                                                                                 Rejection Memo
                                                                                                                         (IED) Defeat Requirements,                              The JRAC and Joint Staff are            depending on dollar amount.
                                   Provides feedback to the COCOMs on the                                              Resources, Acquisition Board                                members of the JR2AB.                                                                                     Director, JIEDDO
                                  implementation of materiel, logistics, or other                                             (JR2AB). Sends a                                                                            The JRAC and Joint Staff are
                                             solution to the JUON.                                                         memorandum back to the                                                                            members of the JIPT.
                                                                                                                                                                                                                                                                                          Approves Joint IED Defeat
                                             The J-8 DDRA is a core member of the JRAC.                               JRAC as to whether the JUON                                                                                                                                    initiatives valued up to $25 million.
                                                                                                                      is accepted, partially accepted,
                                                                                                                               or not accepted.                                                                                                                                          The JRAC and Joint Staff are
                                                                                                                                                                                                                                                                                           members of the SRSG.



                                                                                                                                                                                                                  Key:
1
  The form on which a Joint Urgent Operational Need is submitted is called a Joint Staff Rapid Validation and Resourcing Request.
2
  There are multiple FCBs with different subject matter experts.                                                                                                                                                         Combatant Command          Joint Rapid Acquisition Cell                       A On-page Connector
3
  Most JUONs go the the DDRA for approval. However, in some cases, the JUON decision goes to the JCB for validation. For example, a JUON that meets
Acquisition Category I criteria would most likely go to the JCB.                                                                                                                                                         Service or Agency         Joint Improvised Explosive Device Defeat Organization
4
  A JUON may be designated as an IWN if 1) there is a materiel, logistic, or service solution, 2) left unfulfilled, the need will seriously endanger personnel or pose a
major threat to ongoing operations, and 3) it requires a resolution within a span of 120 days or less.
                                                                                                                                                                                                                         Joint Staff               Validated Joint Urgent Operational Need / Immediate Warfighter Need

                                                                                                                                                          57

Appendix J. Client Comments on the
Finding, and Our Response
Our detailed response to the comments from the Director, Joint Staff and the
Commanding General, Marine Corps Combat Development Command (MCCDC) on the
draft report finding follow. The complete text of those comments can be found in the
Client Comments section of this report.

Comments on the Review of Internal Controls
The Director, Joint Staff requested that a sentence in the Review of Internal Controls in
Appendix A be changed to reflect his proposed changes to Recommendations 1. and 2.
The Director stated that providing a means for Services to forward urgent requirements
with potential joint-Service applicability to the combatant commanders and then to the
Joint Staff for consideration will ensure that the combatant commander has the
opportunity to review and endorse Service urgent requirements that may have
joint-Service applicability within the assigned area of responsibility. He also stated that
this change will ensure consistency with the Deputy Secretary of Defense memorandum
of November 2004 regarding immediate warfighter needs.

Audit Response
We agree that it is important for the combatant commander to have the opportunity to
review and endorse Service urgent requirements. We also agree that DoD policy
regarding the processing of urgent requirements should be consistent. The November 15,
2004, Deputy Secretary of Defense memorandum that the Director, Joint Staff cited on
immediate warfighter needs outlines the procedures, roles, and responsibilities for the
functioning of the Joint Rapid Acquisition Cell process. The memorandum also states
that combatant commanders will certify whether urgent requirements are operationally
critical. Therefore, we revised Appendix A to incorporate the Director’s comments.

Comments on the Availability of Urgent Needs
Processes
The Commanding General, MCCDC stated that the Results in Brief and the finding stated
that the MCCDC did not take advantage of Joint Staff processes available to address an
immediate and apparent joint warfighter need. He stated that the processes described
were directly available only to combatant commanders, not to Military Departments or
agencies. He explained that the only option available to the MCCDC would have been to
recommend that the UUNS originator submit a request through the operational chain of
command for further consideration by the combatant commander. Furthermore, the
Commanding General commented that the JUON directive was not published until
5 months after the submission of the MRAP UUNS.




                                             59

Audit Response
We agree that the Chairman of the Joint Chiefs of Staff Instruction 3470.01, or the JUON
directive, was not issued until July 15, 2005, about 5 months after the submission of the
MRAP UUNS. Accordingly, we revised the sentence in the Results in Brief to read:
“Further, the MCCDC did not, as it could and should have in July 2005, request that the
Deputy Commanding General, I Marine Expeditionary Force (Forward) take advantage
of new Joint Staff processes available to address an immediate and apparent joint
warfighter need for an MRAP-type vehicle capability.” In addition, we revised the
second bullet of the finding paragraph to read “request that the Commander, I Marine
Expeditionary Force (Forward) submit the urgent requirement through the JUON process,
which was established while the MCCDC was reviewing the MRAP UUNS, to determine
whether to initiate a joint acquisition program to meet the urgent warfighter need.”

Comments on the Availability of Mine Resistant Ambush
Protected-Type Vehicles
The Commanding General, MCCDC stated that the potential vendors of MRAP-type
vehicles identified by MCSC did not have the immediate industrial capacity to satisfy the
February 17, 2005, MRAP UUNS. He also stated that the term “MRAP” was used in the
UUNS as general nomenclature, and no manufacturer was either producing or marketing
specific vehicles by that name. Further, he stated that the distinction is critical to
understanding the decision by the Commandant of the Marine Corps to procure and field
M1114 up-armored HMMWVs as the most immediately available technology for
defending Marines from the landmine and IED threat. Finally, the Commanding General
stated that the distinction between MRAP-type vehicles as we know them today and the
MRAP nomenclature used in the MRAP UUNS counters any potential perception that a
commercial off-the-shelf product was available that could have quickly protected
Marines in the field, but was disregarded.

Audit Response
The report does not state that MRAP-type vehicles could be produced immediately or
were readily available on a large scale in 2005. Even in late 2006, when the MRAP
program began, the industrial base needed to be ramped up. We believe that industry
would have ramped up production capacity in 2005 had the UUNS request been approved
and funded.

Regarding the use of the “MRAP” nomenclature, the February 2005 MRAP UUNS
mentions the Cougar and Buffalo vehicles, which are MRAP-type vehicles, by name. In
addition, the Marine Corps began procuring Cougars for explosive ordnance disposal
units in 2004. Although the term “MRAP” may not have been widely used in 2005, the
characteristics of an MRAP-type vehicle were clearly defined in the UUNS itself.

Further, as stated in the report, the former Commandant of the Marine Corps stated that
his direction to procure and field M1114 up-armored HMMWVs was not intended to
preclude the Marine Corps from procuring MRAP-type vehicles or to stop MCCDC from




                                           60

completing the requirements of the UUNS process for considering the acquisition of
MRAP-type vehicles in response to the February 17, 2005, UUNS.

Comments on the Mine Resistant Ambush Protected
Vehicle Timeline of Events
The Commanding General provided the timeline below of events occurring since
February 2005 to illustrate that no MRAP manufacturer had a ready production capability
in February 2005.

   �	 February 17, 2005 – UUNS submitted for MRAP-type vehicles
   �	 April 25, 2005 – MCSC executes a sole-source justification and approval to
      procure the first MRAP-type vehicle, the JERRV, from Force Protection,
      Incorporated
   �	 May 13, 2005 – MCSC awards a sole-source contract to Force Protection, 

      Incorporated for 122 JERRVs (delivery of those vehicles eventually took 

      13 months) 

   �	 June 2005 – Marine Corps decides to procure M1114 up-armored HMMWVs as
      the most viable solution available to address the IED problem
   �	 June 2006 – Vehicle deliveries under the 2005 JERRV order are completed
   �	 November 14, 2006 – MCSC awards Force Protection, Incorporated another sole-
      source contract in response to an October 6, 2006, statement of need for
      MRAP-type vehicles
   �	 January 26, 2007 – MCSC awards contracts to nine different manufacturers in an
      attempt to increase production in response to the October 6, 2006, statement of
      need
   �	 January through July 2007 – Four of the nine manufacturers from the January
      contract award fail to make timely delivery or do not meet contract requirements
   �	 January 2007 to Present – Production vehicles, delivered by five contractors,
      undergo significant testing and refinement to meet contract requirements

Audit Response
As stated earlier, we agree that the industrial base for MRAP-type vehicles needed to be
developed. In late 2006, when the MRAP program began, the industrial base needed to
be ramped up. We believe that had DoD showed greater interest in MRAP-type vehicles
in 2005, as commanders in the field requested, industry would have responded sooner
and would have worked quickly to build more vehicles. According to a representative
from MCSC, the MCSC did not work to build the industrial base between 2005 and 2006,
except with Force Protection, Incorporated, to increase MRAP-type vehicle production
capacity.

As discussed in the finding, the decision by the Commandant of the Marine Corps to
acquire M1114 up-armored HMMWVs at the same time that the MRAP UUNS was
being processed apparently kept MCCDC from completing the UUNS process as
required, even though the then-Commandant stated that he did not intend for this to
happen.



                                          61

After the Secretary of Defense made the production and fielding of MRAP-type vehicles
the Department’s number one acquisition priority in May 2007, industry quickly
identified the ability to produce MRAP-type vehicles to fulfill user requirements in the
UUNS. Although no MRAP manufacturer had a ready production capability in February
2005, industry clearly could have acted much sooner to satisfy the UUNS requirement
had MCCDC validated and approved the requirements of the UUNS and had MCSC
responded by working to build the industrial base when the UUNS was received in
February 2005.


Comments on the Urgent Need Web-Based Tracking
System
The Commanding General stated that the MCCDC’s Virtual Urgent Universal Need
Statement system, initiated and introduced since initial MRAP vehicle requests in 2005,
substantially resolved many of the deficiencies identified in the management of the
urgent needs process.

Audit Response
In the finding, we acknowledged Marine Corps actions taken to improve the UUNS
process that were taken in response to the Naval Audit Service’s Report No. N2007­
0060, “Marine Corps Urgent Universal Need Statement Process,” September 28, 2007.
We stated that the new practices would give the UUNS process greater visibility and
transparency.

Comments on the Issuance of the Joint Urgent
Operational Need Guidance
The Commanding General noted that Chairman of the Joint Chiefs of Staff
Instruction 3470.01, “Rapid Validation and Resourcing of Joint Urgent Operational
Needs (JUONs) in the Year of Execution,” July 15, 2005, was not published until
5 months after the submission of the MRAP UUNS.

Audit Response
The last brief to the MROC on the MRAP UUNS submitted in February 2005 occurred
on August 8, 2005, approximately 3 weeks after the initiation of the JUON process.
Accordingly, the JUON process was available before the MCCDC stopped processing the
February 2005 UUNS. As this JUON process was available, the MCCDC could and
should have requested that the Deputy Commanding General, I Marine Expeditionary
Force (Forward) submit the requirement to the new Joint Staff process to address an
immediate and apparent joint warfighter need for an MRAP vehicle capability.

Comments on Marine Corps Order 3900.15B
The Commanding General, MCCDC stated that the draft report accurately describes
Marine Corps Order 3900.15B as establishing policy for capabilities-based planning, but



                                           62

added that the Order also clarifies Service purpose and policy for the submission and
processing of an UUNS.

Audit Response
We agree that Marine Corps Order 3900.15B, “Urgent Universal Need Statement
Processing,” Enclosure 7, includes information on the Service purpose and policy for the
submission and processing of an UUNS. In addition, Marine Corps Bulletin 3901, issued
as a supplement to the Order, provides specific information on roles, responsibilities, and
desired outcomes associated with the processing of an UUNS.

Comments on High Mobility Multi-Purpose Wheeled
Vehicles and Anti-Tank Mines
The Commanding General, MCCDC stated that the draft report references to the
survivability of a HMMWV against an antitank mine are not relevant because antitank
mines are designed to defeat heavy armored fighting vehicles.

Audit Response
While we agree that antitank mines are designed to defeat heavy armored fighting
vehicles, they are also used against other tactical vehicles, including HMMWVs. As a
result, such vehicles should be designed to protect the crew from the expected threat.

           Appendix D of this report, Table D-2, provides information on the approximate
size distribution of antivehicular landmines (approximately 63 percent of antitank mines
contain between 13.2 and 22 pounds of explosives). Because of this, the February 17,
2005, MRAP UUNS stated that the vehicle should protect the crew from the IED/mine
threat and that minimum protection should be 30 pounds of explosives under any wheel
and 15 pounds of explosives anywhere under the vehicle.




                              FOR OFFICIAL USE ONLY
                                       63
THIS PAGE LEFT INTENTIONALLY BLANK





                64

Joint Staff Comments 





                                      THe JOINT STAFP
                                        WASHINGTON, DC




   •	  Reply ZIP Code:
       20318-0300
                                                                    DJSM-IOI8-08
                                                                    5 November 2008


       MEMORANDUM FOR THE INSPECTOR GENERAL OF THE DEPARTMENT OF
                      DEFENSE

       Subject: 	 Marine Corps Implementation of the Urgent Universal Needs Process
                  for Mine Resistant Ambush Protected Vehicles (Project No. D2008­
                  DOOOAE-O 174.000)


      1. Thank you for the opportunity to respond to the subject memorandum. l
      The Joint Staff concurs with the draft report subject to incorporation of the
      enclosed comments.
       2. The Joint Staff rint of contact is Co.nm,ander 
                  USN;
      J-8/CAD: 



                                            -=:)~~cU7d/./
                                            STANLEY A. MCCHRYSTAL
                                            Lieutenant General, USA
                                            Director, Joint Staff


      Enclosure

      Reference:
      1   DOD(IG) memorandum, 26 September 2008, "Marine Corps
          Implementation of the Urgent Universal Needs Process for Mine
          Resistant Ambush Protected Vehicles (Project No. D2008-DOOOAE­
          0174.000)"




                                                             65 

Click to add JPEG file




               66

                         Final Report 

                          Reference





                            Page 20




Click to add JPEG file




               67

Navy Comments 





                              THE ASSISTANT SECRETARY OF THE NAVY

                                          1(loy) NAVY FEh'TAG0N



                                           NOV 0 6 2008

      MEMORANDUM FOR DEPARTMENT OF DEFENSE ASSISTANT INSPECTOR
                       GENERAL FOR AUDITING

      SUBJECT: Department of Defense In~pector General (DoDIG) Draft Report D2008­
                   DOOOAE.Q 174.000, "Marine Corps ImplementOition of the Urgent
                  Univcrs,il Needs Process for the Mine Resistant Amhush Protected
                  Vehicles"

            The Department of the Na\'y (DoN) has reviewed the DoDIG Draft Report
      D200S-DOOOAE-0174.000 and 'lgn~·es with both of the DoDIG's recommendations.
      The DoN has no comments for Recommendation I due to identifying a change to a
      Chainllun of the Joint Chiefs of Staff Instruction. The response to
      Recommendation 2, along with general comments, is provided in the attachment.

      It is important to note that the general comments, provided by the USMC, add
      accuracy and context to the report's findings and should be incorporated into the final
      DoDIG report. It is also important 10 recognize that the MRAP efforts coordinated hy
      the USMC have progressed with e"olutionary capabilities to meet the still rapidly
      c\'ol"ing threat to our [on..'es in Iraq and Af"hollis'an.




      Attachments:
      As slated




                                                                  68 

Marine Corps Comments 





                                DEPARTMENT OF THE NAVY
                           H£A.OQUARnRS UNITED STAT" MARINE cORPS
                                 3000 MARINE CORPS PENTAGON
                                  WASHINGTON, PC 2:0350-3000                  1NRff'l""UUI TO
                                                                              8AE-0174
                                                                              RFR-80
                                                                              29 Oct 08

      MEMORANDUM FOR ASSISTANT SECRETARY OF THE nAVY,
                         RESEARCH, DEVELOPMENT AND ACQUISITION

      Subj: 	 Department of Defense Inspector General Draft Report
               D2008-DOOOAE-0174. 000, \'Harine Corps Implementation of
               the Urgent Universal Needs Process for Mine Resistant
               Ambush Protected Vehicles," dated September 26, 2008

      Ref: 	   (a) DOOIG memorandum of september 26, 2006

      Enel: 	 (1) Marine Corps comments

      1. In accordance with reference (a)J the Harine Corps has
      reviewed the subject draft report and provides comments at the
      enclosure.
      2.




                                                                      Marine Corps




                                                               69 

                         Final Report 

                          Reference





                            Page 16





Click to add JPEG file




               70

Click to add JPEG file




               71

                                                                                        Final RepOli 

                                                                                         Reference 





       Department of Defense Inspeotor General Draft Report 

    D2008~DOOOAE-0174.000, ·MARINE CORPS·IMPLEMBNTATI~~ OF THE 

     URGENT UNIVERSAL NEEDS PROCBSS ·POR NINE RESISTANT. AMBUSH 

          PROTECTED VSHICLES,· dated september 26, 20QS 


      (9) 	 January 07 to Present - Even the fivB contractors who 

           have dolivared produotion vehicles have undergone 

            significant testing and refinement to enable them to 

           meet contraot requirementa. This e8tablishes that no 

           HRAP mAnufaotu~er had a rea4y oapability in February 

           2005. 

     c. Page 2. Of note, the secure web-based tracking system 

desoribed in the Report, initiated and introduoed sinoe the 

events desoribed, h~s substantially resolved many of the prior 

defioiencies iden~ified in the management of the UNP. By 

enabling visibility of ~aoh request (rom original submission 

through resolution, tne "Virtual Urgent Universal Need Statement 

 (VUUNS) It system now provides complete transparency to the 

process to partioipants, from originators to senior leadors. It 

also provides a~tomatio notifioation to participants of every 

change in status of a submission, and allowD croes-functional 

collaboration to develop solutions to the oapability gaps 

identified. As a ~eGult, YOUNS substantially improves the 

spee6, reliability, and effectiveness of the UNP, an6, 

significantly addresses the lessons-learned through the 

development of MRAP capabilitietp. 

    d. Page 6. O~note, the JOON directive was not published 

until five months after the submission of the MRAP UUNS. 

     e. Page 6. While the draft report accurately describes
l"arine Co.rps Order (MCO) 3900.159 as establishing policy for
capabilities-based planning, it is important to note that MCO
3900.15B also olarifies service purpose and polioy for the
submission and processing of an Urgent UNS.
    f. Page 12. For olarity, it should PO noted that the
potential vendors identified by ~~rine Corps Systems command did
not have the immediate industrial capaoity to satisfy the MRAp
urgent UNS.
    g. page 35. Reference to the survivability of a HMMWV                                Page 37
against an anti~tank mine io not relevant, Bince anti~tank mines
are inherently designed to defeat even heavy ~ored fighting
vehicles.




                                                                      Enclosure( I) .




                                           72 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
John E. Meling
